   Social Security Administration
   Office of the Inspector General


Semiannual Report to Congress
    April 1, 2010 - September 30, 2010
            Social Security Administration
            Office of the Inspector General




                    Mission Statement
By conducting independent and objective audits, evaluations,
and investigations, we inspire public confidence in the
integrity and security of SSA’s programs and operations
and protect them against fraud, waste, and abuse. We
provide timely, useful, and reliable information and advice
to Administration officials, Congress, and the public.


                    Vision and Values
We strive for continual improvement in SSA’s programs,
operations, and management by proactively seeking new ways
to prevent and deter fraud, waste, and abuse. We commit
to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging
employee development and retention and fostering diversity
and innovation.
                                                                              Semiannual Report to Congress




              A Message from the Inspector General
           The Social Security Administration (SSA), like all Federal
           agencies, continues to evolve in an effort to better serve
           the American public. While technological advances have
           aided the Agency’s ability to connect with its customers,
           those changes have also created new challenges. It is a
           critical time, then, for the SSA Office of the Inspector
           General, which follows a core mission of protecting and
           improving the Agency and its programs.
           In this Semiannual Report to Congress, covering the
           period April 1, 2010 through September 30, 2010, I
           am pleased to present to the 111th Congress our most
           significant audit and investigative accomplishments.
           Even during times of economic challenge and increasing
           workloads, we have maintained a focus on persistent management challenges like the
           disability backlog, as well as on high-priority investigations, such as those targeting
           representative payees who misuse Social Security benefits intended for people who are
           not able to manage their own financial affairs.
           Also during this reporting period, we continued our oversight of SSA’s plan to reduce
           improper payments under Executive Order 13520, Reducing Improper Payments and
           Eliminating Waste in Federal Programs. Our audit work assessed the Agency’s methodology
           for identifying and measuring improper payments, its plan for meeting reduction targets for
           improper payments, and its plan for ensuring that related initiatives do not hinder program
           access by eligible beneficiaries. Additionally, my office has served as a liaison between
           the Inspector General community and the Office of Management and Budget, to help carry
           out Executive Order 13520.
           Employee safety remains a critical issue for Social Security. As the Agency provides
           program benefits to more and more Americans, the possibility of encountering threats
           of harm increases. My office investigated numerous threats against Social Security
           employees and facilities during Fiscal Year 2010, and we have made employee safety
           training and preparedness a priority moving forward.
           These are challenging times, but this office’s nearly 600 employees remain dedicated to
           inspiring confidence in the integrity and security of SSA’s programs, and we strive to
           protect them against fraud, waste, and abuse. I assure you that my office will continue
           to work with SSA and the Congress to strengthen the programs that provide timely and
           accurate benefits to those who rely on them.



           S
           Patrick P. O’Carroll, Jr.
           Inspector General



April 1, 2010 - September 30, 2010                                                                       1
                                                                                                                             Semiannual Report to Congress




                     Social Security Administration
                     Office of the Inspector General




                                                Table of Contents
                     A M essage                 from the Inspector                               General.................................. 1

                     Executive Summary.......................................................................................4

                     Introduction                        to      Our Organization..................................... 6

                     Impact...........................................................................................................................8

                     Value..........................................................................................................................23

                     People........................................................................................................................ 36

                     R eporting R equirements                                      and         A ppendices.......................... 39

                     Glossary                of      Acronyms..........................................................................68




April 1, 2010 - September 30, 2010                                                                                                                        3
Semiannual Report to Congress




EXECUTIVE SUMMARY
This report presents the significant accomplishments of the Social Security Administration (SSA) Office of the
Inspector General (OIG) from April 1, 2010 through September 30, 2010. The report is organized according
to three major goals—impact, value, and people—set forth in the OIG Strategic Plan: Fiscal Years (FY) 2006
– 2010, Fifth Edition.

Impact
    We work to have a positive impact on SSA programs and operations by enhancing their integrity, efficiency, and
    effectiveness. During this reporting period, we received more than 82,000 allegations from SSA employees,
    Congress, the public, law enforcement agencies, and other sources. Our agents closed more than 3,300
    criminal investigations, resulting in over 290 arrests, over 530 indictments and informations, over 640 criminal
    convictions (including pretrial diversions). Also, over 50 cases were concluded during the reporting period as
    civil judgments or under the civil monetary penalty (CMP) program. During this reporting period, our agents
    also secured one indictment and six convictions for fraudulent activity related to Hurricanes Katrina and Rita;
    and they continued to work with law enforcement agencies to arrest subjects identified through the Fugitive Felon
    Program. Highlighted investigations in this section relate to Social Security number (SSN) misuse, employee
    misconduct, and threats against SSA employees.
    Our auditors also had a significant impact during this reporting period, issuing 65 reports and making recommendations
    on a wide variety of challenges facing the Agency. Our audit work over the past six months included reviews of SSA’s
    initiatives connected to the American Recovery and Reinvestment Act of 2009 (Recovery Act), SSA’s plan to reduce
    the pending hearings backlog, and the collection and use of SSNs in elementary and high schools.

Value
    Our organization strives to provide valuable products and services in a timely manner to Congress, SSA, and
    other key decision makers, while sustaining a positive return for each tax dollar invested in OIG activities.
    During this reporting period, our auditors identified more than $61.8 million in questioned costs and about
    $1.1 billion in Federal funds that could be put to better use. Highlighted audits include the financial impact
    of the direct payment of benefits to aged beneficiaries who do not have representative payees, and an
    evaluation of cost and income estimates from the Annual Trustees Report against the actual performance
    of the Old-Age, Survivors, and Disability Insurance (OASDI) Trust Funds.
    In the second half of FY 2010, we are reporting over $184 million in monetary accomplishments, including
    over $35 million in SSA recoveries, restitution, fines, settlements, and judgments; and over $149 million
    in projected savings from investigations resulting in the suspension or termination of benefits. In addition,
    we participated in multi-agency investigations that resulted in over $11 million in savings, restitution, and
    recoveries for other agencies. Highlighted investigations in this section relate to representative payee fraud
    and concealment of work activity while collecting disability benefits.
    Our Cooperative Disability Investigations (CDI) Program continues to be one of our most successful initiatives,
    contributing to the integrity of SSA’s disability programs. The efforts of our CDI Units during this reporting
    period resulted in more than $122 million in projected SSA program savings.
    During this reporting period, our attorneys initiated 65 Civil Monetary Penalty (CMP) cases (Section 1129 cases)
    that involved false statements, representations, or omissions made in connection with obtaining or retaining benefits
    or payments under Titles II (Federal Old-Age, Survivors, and Disability Insurance benefits) and XVI (Supplemental
    Security Income) of the Social Security Act (the Act). Included in our investigative accomplishments above is nearly
    $1.95 million in penalties and assessments that our attorneys imposed through our CMP program.

4                                                                               April 1, 2010 - September 30, 2010
                                                                               Semiannual Report to Congress




People
  The collective efforts of our employees continue to be the driving force behind this organization’s success in
  achieving its mission. We provide an encouraging and rewarding work experience with the goal of retaining
  these exceptional individuals. OIG leadership fosters an environment where employees can realize their
  potential through training and developmental programs. OIG components convene training sessions to
  inform their employees about new procedures and share best practices.
  In addition, the OIG Organizational Health Committee annually assesses employee satisfaction levels and
  addresses employee concerns. SSA and the Office of Personnel Management use a baseline of 65 percent
  of employees responding positively (e.g., strongly agree or agree) to measure the statistical strength of an
  organization. Using that definition of statistical strength, 12 of the 13 questions on the OIG survey had
  scores above 65 percent, demonstrating that the health of the OIG organization is strong. Question 12 of
  this survey asks, “Considering everything, how satisfied are you with your job?” Eighty-two percent of our
  employees indicated that they are either satisfied or very satisfied with their job, which is significantly higher
  than the 70 percent rate reported for SSA employees.




April 1, 2010 - September 30, 2010                                                                                5
Semiannual Report to Congress




INTRODUCTION TO OUR ORGANIZATION
The SSA OIG is comprised of the Immediate Office of the Inspector General and five major components:
the Offices of Audit, Counsel, External Relations, Investigations, and Technology and Resource Management.

Immediate Office of the Inspector General
    The Immediate Office of the Inspector General (IO) provides the Inspector General with staff assistance on
    the full range of his responsibilities. IO staff provides liaison with all agencies sharing common interests
    with the OIG and ensures coordination with congressional committees, SSA, the Social Security Advisory
    Board, and the Council of Inspectors General on Integrity and Efficiency. IO includes the Office of Quality
    Assurance and Professional Responsibility (OQAPR), which performs two critical functions. First, it conducts
    exhaustive reviews of each of the OIG’s component offices to ensure compliance with Federal laws and
    regulations, Agency policies, and relevant professional standards. Second, OQAPR conducts thorough and
    timely investigations into allegations of misconduct by OIG employees.

Office of Audit
    The Office of Audit (OA) conducts and supervises financial and performance audits of SSA programs and
    operations, and makes recommendations to ensure that program goals are achieved effectively and efficiently.
    Financial audits determine whether SSA’s financial statements fairly present SSA’s financial position, results
    of operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
    programs and operations. OA also conducts short-term management and program evaluations, and other
    projects on issues of concern to SSA, Congress, and the general public.


Office of the Counsel
to the Inspector General
    The Office of the Counsel to the
    Inspector General (OCIG) provides
    independent legal advice and counsel to
    the Inspector General on a wide range
    of issues, including statutes, regulations,
    legislation, and policy directives. OCIG
    also administers the CMP program,
    and advises the Inspector General on
    investigative procedures and techniques,
    as well as on the legal implications of
    audit and investigative affairs.




6                                                                          April 1, 2010 - September 30, 2010
                                                                           Semiannual Report to Congress




Office of External Relations
  The Office of External Relations (OER) develops the OIG’s media and public information policies, directs
  OIG’s external and public affairs programs, and handles congressional, media, and public requests for
  information. OER is responsible for preparing OIG publications and presentations to internal and external
  organizations, and coordinating the OIG’s presence at SSA and other Federal events. In addition, OER
  prepares the OIG Semiannual Report to Congress and congressional testimony, and coordinates with SSA’s
  Offices of Communications and Legislation and Congressional Affairs.


Office of Investigations
  The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud, waste,
  abuse, and mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
  beneficiaries, contractors, and third parties, as well as by SSA employees while performing their official
  duties. This office serves as the OIG’s liaison to the Department of Justice (DOJ) on all matters relating to
  the investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal,
  State, and local law enforcement agencies.


Office of Technology and Resource Management
  The Office of Technology and Resource Management (OTRM) provides administrative support to the Inspector
  General and OIG components. OTRM formulates and executes the OIG budget, and is responsible for
  strategic planning, performance reporting, and facility and property management. OTRM manages a national
  human resources program, and develops and maintains the OIG’s administrative policies and procedures.
  OTRM also maintains hardware, software, and telecommunications networks to support the OIG’s mission.
  Finally, OTRM manages the OIG’s Allegation Management and Fugitive Enforcement Division (AMFED)
  and Electronic Crimes Division.




April 1, 2010 - September 30, 2010                                                                           7
Semiannual Report to Congress




IMPACT
The first goal of the OIG Strategic Plan is Impact. We are committed to enhancing SSA’s effectiveness
and efficiency through our investigative, audit, and legal activities. We strive to have maximum impact on SSA’s
programs and operations to ensure their continued integrity and reliability. During this reporting period, we
completed numerous audits, investigations, and legal initiatives covering major SSA program and management
areas, which had a significant impact on the detection and prevention of fraud, waste, and abuse. The
summaries presented below are indicative of our work over the past six months.

Audit Impact Initiatives
    OA contributes to this strategic goal by conducting and supervising comprehensive financial and performance
    audits, and by making recommendations to maximize the effective operations of Social Security programs.
    These audits, along with short-term management and program evaluations, focus on those SSA programs
    and activities most vulnerable to fraud and abuse.

American Recovery and Reinvestment Act of 2009

    On February 17, 2009, the President signed into law the Recovery Act, P.L. 111-5. The Administration is
    committed to investing Recovery Act funds with an unprecedented level of transparency and accountability
    so Americans know where their tax dollars are going and how they are being spent. SSA was provided funds
    under the Recovery Act in the following areas:
    • $500 million designated for the replacement of SSA’s National Computer Center (NCC);
    • $500 million designated for processing disability and retirement workloads, and information technology
    acquisitions and research in support of these workloads; and,
    • $90 million to reimburse costs for processing a one-time economic recovery payment (ERP) of $250 to
    millions of qualified individuals receiving Social Security benefits and/or Supplemental Security Income (SSI).
    Congress provided our office $2 million to conduct oversight of SSA programs, projects, and activities funded
    by the Recovery Act. During this reporting period, we issued eight reports related to the Recovery Act.




8                                                                           April 1, 2010 - September 30, 2010
                                                                              Semiannual Report to Congress




1) The Social Security Administration’s Data Center Alternatives

  In December 2009, we received a congressional request for assistance in evaluating SSA’s decision process
  regarding building its new data center outside SSA’s Woodlawn, Maryland campus. Our contractor’s review
  indicated that, in general, SSA had conducted a sophisticated evaluation of its data center requirements,
  timeframes, and options in planning to replace its NCC facility.
  However, there were questions about the costs and the risks that have been assigned to the different options
  for building a new data center. Our contractor made several recommendations related to costs and risks,
  and SSA agreed with the recommendations.




2) The Social Security Administration’s Use of Site Selection Industry Best Practices for its
New Data Center

  We initiated this review to evaluate the appropriateness of the site or potential sites selected for the new data
  center, and to determine whether best practices were followed in the development of the overall project plan
  and milestones. Our contractor’s evaluation found that the site selection team’s (GSA and SSA) decision
  criteria avoided major areas that potentially are hazardous to the operation of a data center (including natural
  and man-made risks). In addition, the criteria defined major site- and data center-construction issues that
  would have a significant impact on the site to be selected.
  However, questions remained concerning the site selection team’s process in narrowing the sites to a short list.
  In addition, the initial mandatory selection criteria applied to the geographic regions under consideration may
  have excluded too many locales. In particular, the site selection team did not appear to have considered the
  serious fiscal impact of excluding certain locales, with regard to the electrical power cost arena over the life
  cycle of the data center. Finally, only limited information was available to evaluate the telecommunications
  criteria concepts.
  Our contractor made 25 recommendations related to site selection industry best practices, and SSA agreed
  with 22 of 25 recommendations.



April 1, 2010 - September 30, 2010                                                                               9
Semiannual Report to Congress




3) The Social Security Administration’s Response to Congressional Inquiry Concerning New
Data Center Site Selection

  We initiated this review to evaluate the sufficiency and reliability of the site information on which SSA based
  its decision on where to build the new data center. The review served as an independent assessment of
  whether building on or off the Woodlawn, Maryland campus site is most cost-effective and best suited to
  meet SSA’s requirements.
  Congress posed questions to the General Services Administration (GSA) and SSA regarding the NCC
  replacement project schedule and cost efficiency. GSA hired a contractor to develop detailed requirements
  and to perform an assessment of the off- and on-campus options available to SSA for building a new data
  center.
  Our contractor found the study did not address construction costs and future use of the current NCC, include
  an assessment of the NCC project’s life-cycle cost, incorporate the costs of transition and occupancy into
  the overall analysis, or incorporate a cost analysis of the alternatives available to mitigate the impact of
  potential schedule delays. Our contractor made four recommendations, and SSA agreed with two of those.

4) The Social Security Administration’s Hiring Under the American Recovery and
Reinvestment Act of 2009

  In this review, we determined that SSA timely reported aggregate FY 2009 staffing information to OMB and
  Recovery.gov, regarding employees hired with Recovery Act funds in Operations, the Office of Disability
  Adjudication and Review (ODAR), and the Disability Determination Services (DDSs).
  Because of the Agency’s process for tracking employment at the DDS level, we were unable to verify the
  accuracy of the 300 DDS employees hired using Recovery Act funds. However, we were able to determine
  that FY 2009 hiring at DDS locations was consistent with the Recovery Act positions allocated by the Agency.

5) Social Security Administration Computer Equipment Purchases with American Recovery
and Reinvestment Act of 2009 Funds

  We determined whether (1) Hewlett Packard (HP) complied with contract terms (Contract Number SS00-08-
  40039) and applicable regulations; (2) SSA personnel properly monitored the contract; and (3) Recovery
  Act funds were properly accounted for and used.
  We found that the type and quantity of computer equipment HP provided and prices it charged SSA adhered
  to contract terms.




10                                                                        April 1, 2010 - September 30, 2010
                                                                            Semiannual Report to Congress




6) Economic Recovery Payments for Social Security and Supplemental Security Income
Beneficiaries

  In this review, we determined that SSA properly issued the vast majority of the $13 billion in ERPs to about
  52 million eligible beneficiaries. However, SSA could have prevented the issuance of ERPs to some ineligible
  beneficiaries. Specifically, we estimated that SSA issued ERPs totaling $18 million to about 71,688 deceased
  beneficiaries. In addition, SSA did not always recover erroneous ERPs issued to deceased beneficiaries.
  We also found that SSA issued $4.3 million in ERPs to approximately 17,348 incarcerated beneficiaries.
  However, we noted that about 90 percent of the incarcerated beneficiaries were, in fact, eligible for an ERP
  because the Recovery Act did not prohibit ERPs to beneficiaries who were incarcerated at the time of payment.
  Should another ERP be enacted into law, we recommended that SSA improve controls to prevent payments
  to ineligible beneficiaries. We also recommended that the law prohibit the payment of ERPs to incarcerated
  beneficiaries. SSA generally agreed with our recommendations.
  In addition, SSA reported that about 45,200 of the ERPs issued to deceased beneficiaries were subsequently
  returned, and all but 126 of the estimated 1,735 ERPs issued to ineligible prisoners had been recovered.

7) The Social Security Administration’s Use of American Recovery and Reinvestment Act of
2009 Funds to Administer Economic Recovery Payments

  For this review, we determined that administrative costs incurred by SSA to administer ERPs were generally
  valid and appropriate. SSA spent considerably less than the $90 million provided for administrative costs
  related to the issuance of the ERPs. As of February 2010, SSA had obligated approximately $39 million in
  Recovery Act funds to administer the ERPs. On August 10, the President signed Pub.L. No. 111-226, which
  rescinded $47 million of that funding.

8) Contractors’ Reporting of Jobs Created Using American Recovery and Reinvestment Act
Dollars

  For this review, we verified the number of jobs reported as created or retained by SSA contractors who
  received Recovery Act awards as of the quarters ended September 30, 2009 and December 31, 2009. We
  reported that based on our verification of the number of jobs reported, eight of the nine contractors reported
  jobs created or retained in a manner inconsistent with OMB guidance.
  Contractors’ errors resulted from their misinterpretation of OMB guidance. SSA reviews contractors’ job
  creation reports, and its quality review procedures comply with OMB standards. However, SSA’s quality
  reviews were not designed to detect, and did not detect, the specific types of errors we found during our
  detailed study. We did not make any formal recommendations, but we suggested that SSA periodically verify
  the jobs reported by Recovery Act contractors.




April 1, 2010 - September 30, 2010                                                                           11
Semiannual Report to Congress




Disability Impairments on Cases Most Frequently Denied by Disability Determination Services
and Subsequently Allowed by Administrative Law Judges
  Our objective was to identify the impairments of initial disability cases most frequently allowed at the ODAR
  hearing level and evaluate the characteristics of these cases.
  A person who disagrees with an initial determination by the State DDS may request an appeal. The levels
  of appeal are reconsideration at the DDS [this level of appeal is eliminated in prototype states] and an
  administrative law judge (ALJ) hearing and Appeals Council review at ODAR.1
  We identified the four impairments that were most often denied by DDSs in Calendar Years (CY) 2004
  through 2006, appealed to the hearing level, and subsequently allowed. These impairments were Disorders
  of Back; Osteoarthrosis and Allied Disorders; Diabetes Mellitus; and Disorders of Muscle, Ligament, and
  Fascia. Our analysis of cases with these four impairments disclosed:
  • Claimant age affected disability determinations.
  • Determinations of claimants’ ability to work resulted in differences at the DDS and hearing levels.
  • Claimant representation was more prevalent in cases allowed at the hearing level than in cases decided
  at the DDS level.
  • Cases were allowed at the hearing level based on a different impairment than that on which the DDS
  made its determination.
  • States had both DDS denial rates and hearing level allowance rates above the national averages.
  • ODAR regions, hearing offices, and ALJs had wide variations in allowance rates.
  We recommended, and the Agency agreed to:
  1. Collect information related to claimant representation at the DDS level to determine whether representation
  results in more allowances at the DDS level.
  2. Consider conducting a targeted review of disability determinations made in the six States we identified as
  having higher-than-average DDS denial rates and hearing level allowance rates for the four impairments
  we analyzed.
  3. Consider analyzing variances between the hearing offices and ALJs with high and low allowance rates
  for the four impairments we analyzed to determine whether factors are present that support the variances.

  1
    In 1999, SSA began testing several modifications to the disability determination procedures, including the elimination of the
  reconsideration step in 10 Prototype States: Alabama, Alaska, California (Los Angeles North and Los Angeles West Branches),
  Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and Pennsylvania.




12                                                                                  April 1, 2010 - September 30, 2010
                                                                              Semiannual Report to Congress




Conversion of the Social Security Administration’s Legacy File Management System
  SSA’s Master Data Access Method (MADAM) was developed in the early 1980s to support the storage and
  retrieval of SSA’s major program Master Files. MADAM was written in a programming language that is no
  longer widely used, which, when combined with the system’s complexity, makes it difficult to train or recruit
  new programmers. Furthermore, with the increasing number of retirements among SSA’s system personnel,
  there will be fewer individuals who can maintain MADAM.
  We found that SSA had effectively implemented MADAM-DB2 Conversion Project (the Project) to replace
  MADAM; however, the Project implementation strategy was not efficient because the strategy resulted in less
  than optimal database design. To date, SSA has successfully completed Phase I for two of the four Master
  Files. Although the Project team performed well, we found the following:
  • SSA had not classified the Project as a major Information Technology (IT) investment with OMB.
  • SSA lacked a long-term, comprehensive strategic Project plan.
  • The Project methodology may result in a less-than-optimal design.
  • SSA did not consider other alternatives for replacing MADAM.
  • SSA needed to improve certain project management practices.
  We recommended that SSA: (1) discuss with OMB the need to classify the Project as a major IT investment; (2)
  establish a long-term, comprehensive strategic plan for the Project and related major IT initiatives; (3) ensure
  an Alternatives Analysis is performed for each future major IT investment; (4) continue with its conversion, but
  also assess the remaining portions of the Project to determine full scope and costs of the current MADAM
  conversion to DB2 strategy and document the advantages and disadvantages for delaying the application
  rewrite efforts and the impact on total project costs; and (5) ensure compliance with OMB and SSA project
  management requirements. SSA agreed with or partially agreed with all five recommendations.




April 1, 2010 - September 30, 2010                                                                             13
Semiannual Report to Congress




The Office of Disability Adjudication and Review’s 2013 Pending Hearings Backlog Plan
  Our objective was to determine whether SSA had an achievable plan to eliminate the pending hearings
  backlog by FY 2013.
  As outlined in its FY 2008–2013 Strategic Plan, SSA plans to reduce the number of pending cases to a
  desired level of 466,000 cases and reduce the average processing time to 270 days by FY 2013.
  Our projections, based on four key variables, indicate that SSA will meet its FY 2013 pending hearings
  backlog goal. We estimate the Agency will have approximately 405,000 pending hearing cases by the end
  of FY 2013, which is lower than the Agency’s stated goal of 466,000 cases. Our calculations are based
  on factors over which SSA maintains varying control, including the (1) number of new receipts, (2) number
  of available ALJs, (3) productivity of those ALJs, and (4) number of decisions issued by senior attorney
  adjudicators.
  SSA should be able to eliminate the pending hearings backlog if its projections are met. However, there is
  little room for error. A small change in any one of the underlying assumptions may cause SSA to miss its
  2013 pending hearings backlog goal. For this reason, continued assessment of these various factors, as
  well as periodic adjustments by Agency managers, will be necessary to ensure SSA remains on track.

Kindergarten Through 12th Grade Schools’ Collection and Use of Social Security Numbers
  Our objective was to assess kindergarten through 12th grade (K-12) schools’ collection and use of SSNs
  and the potential risks associated with current practices.
  Millions of children enroll in K-12 schools each year. To assist in this process, K-12 schools may collect
  and use SSNs for various purposes. Although no single Federal law regulates overall use and disclosure
  of SSNs by K-12 schools, the Privacy Act of 1974, the Social Security Act, and the Family Educational Rights
  and Privacy Act of 1974, contain provisions that govern disclosure and use of SSNs.
  Despite the increasing threat of identity theft, our review of State laws and school policies and practices
  disclosed that K-12 schools’ collection and use of SSNs was widespread. We determined that many K-12
  schools used SSNs as the primary student identifier or for other purposes, even when another identifier
  would have sufficed. In addition, there has been a growing trend among State Departments of Education
  to establish longitudinal databases, which may include SSNs, of K-12 children to track students’ progress
  over time. While some State laws may require that K-12 schools collect SSNs in some instances, we believe
  some do so as a matter of administrative convenience, and we do not believe convenience should take
  precedence over safeguarding children’s personal information.
  We recommended that SSA: (1) coordinate with State Departments of Education and K-12 school systems to
  inform the education community about the potential risks associated with using SSNs as student identifiers or
  for other purposes; (2) encourage State Departments of Education and K-12 schools to reduce unnecessary
  collection and use of SSNs and implement safeguards to protect SSNs when collected; and (3) promote the
  best practices of States and K-12 schools that have taken steps to limit SSN collection and use.
  SSA agreed with our recommendations.




14                                                                       April 1, 2010 - September 30, 2010
                                                                           Semiannual Report to Congress




Investigative Impact Initiatives
  OI examines and investigates allegations of fraud, waste, abuse, and mismanagement in SSA programs
  and operations. These allegations may involve benefit fraud, SSN misuse, violations by SSA employees, or
  fraud related to grants and contracts. Our investigations often result in criminal or civil prosecutions and
  the imposition of CMPs against offenders. These investigative efforts improve SSA program integrity by
  deterring those contemplating fraud against SSA in the future. Our work in the areas of program fraud,
  enumeration fraud, SSN misuse, and employee misconduct ensures the reliability of SSA programs and their
  future operations.




                                        Investigative Results

                                         10/1/09 - 3/31/10    4/1/10 - 9/30/10   Fiscal Year 2010

          Allegations Received                75,563              82,879             158,442
          Cases Opened                         3,251               3,109               6,360
          Cases Closed                         3,740               3,373               7,113
          Arrests                               303                 292                 595
          Indictments/Informations              432                 557                 989
          Criminal Convictions                  794                 647                1,441
          Civil/CMPs                             69                 55                  124




April 1, 2010 - September 30, 2010                                                                         15
Semiannual Report to Congress




                        Cases Opened by Program Category
                         April 1, 2010 - September 30, 2010




                         Cases Closed by Program Category
                         April 1, 2010 - September 30, 2010




16                                                    April 1, 2010 - September 30, 2010
                                                                         Semiannual Report to Congress




                              Allegations Received by Source

                                        10/1/09 - 3/31/10   4/1/10 - 9/30/10   Fiscal Year 2010

         Law Enforcement                    25,815              30,249             56,064
         SSA Employees                      16,934              18,892             35,826
         Private Citizens                   17,181              17,657             34,838
         Other                               9,892              9,529              19,421
         Anonymous                           3,722              4,753               8,475
         Beneficiaries                       1,384              1,211               2,595
         Public Agencies                      635                588                1,223
         TOTAL                              75,563              82,879            158,442




                            Allegations Received by Category

                                        10/1/09 - 3/31/10   4/1/10 - 9/30/10   Fiscal Year 2010

         SSI Disability                     29,197              31,180             60,377
         Disability Insurance               27,698              31,040             58,738
         SSN                                 6,748              7,987              14,735
         Other                               5,894              6,501              12,395
         Old-Age, Survivors Insurance        4,349              3,866               8,215
         Employee                            1,130              1,730               2,860
         SSI Aged                             547                575                1,122
         TOTAL                              75,563              82,879            158,442




April 1, 2010 - September 30, 2010                                                                 17
Semiannual Report to Congress




SSA Fraud: Daughter Embezzles Funds                        SSN Misuse: Bank Branch Manager
from Father                                                Pleads Guilty to Embezzlement
     Our Kansas City office, along with the U.S.             Our Seattle office initiated an investigation based
     Postal Inspection Service, participated in the          on a request for assistance from a bank, after
     investigation of a woman who forged her                 an employee report alerted them to suspicious
     father’s name on his Title II retirement benefits       transactions. The investigation revealed that a
     and, for nearly 15 years, embezzled funds from          branch manager of the bank opened several
     his dental practice and personal bank accounts.         lines of credit using another person’s name,
                                                             SSN, and date of birth, and withdrew funds for
     In June 2010, after pleading guilty to mail
                                                             his own use. He also illegally accessed the
     fraud, the woman was sentenced to 18 months’
                                                             accounts of several bank customers without
     incarceration, three years’ supervised release,
                                                             their knowledge and converted those funds for
     and was ordered to pay full restitution of
                                                             his own use.
     $124,796 to her father.
                                                             In June 2010, after entering a guilty plea to
                                                             bank embezzlement, the branch manager was
SSN Misuse: Colombian National’s Actions                     sentenced to one year and one day in prison,
Result in Fraud Loss of Over $110,000                        followed by six months’ home detention with
                                                             electronic monitoring, five years’ supervised
     Our Dallas office initiated an investigation based      release, and was ordered to pay restitution of
     on information received from the Department of          $112,626 to the bank.
     State’s Diplomatic Security Service. The referral
     alleged that a Colombian national applied for a
     U.S. Passport using a fraudulent birth certificate,
     and possibly used the same fraudulent document
     to obtain a valid SSN card.
     The investigation revealed the Colombian
     national used the false identity to obtain an SSN
     card, as well as to collect Title II and Title XVI
     disability benefits. Additionally, the Texas Health
     and Human Services Commission (TX HHSC)
     paid the individual’s Medicare premiums.
     In July 2010, after pleading guilty to false claims
     to U.S. citizenship, the man was sentenced to six
     months’ incarceration, 12 months’ supervised
     release, and was ordered to pay restitution of
     $103,992 to SSA and $7,167 to the TX HHSC.
     In addition, the man will be deported at the
     completion of his sentence.




18                                                                     April 1, 2010 - September 30, 2010
                                                                            Semiannual Report to Congress




Employee Fraud: Former SSA Employee                       Employee Fraud: SSA Employee Ordered
Misdirects Direct Deposit of SSA Beneficiary              to Pay Restitution to SSA after Misuse
                                                          of Daughter’s SSI Benefits
      Based on a referral from the Pontiac, Michigan
      SSA office, our Detroit office conducted an              Based on information received from SSA’s
      investigation of an SSA claims representative            Assistance and Insurance Program Quality
      for fraudulently creating an underpayment                Branch in Oakland, California, our San
      on a Title XVI disability recipient’s record and         Francisco office conducted an investigation of
      directing the funds into her own bank account.           an SSA claims representative for misusing her
                                                               disabled daughter’s benefits.
      The investigation determined the employee
      used her own Personal Identification Number              The investigation revealed that the employee
      to create the underpayment intended for                  misused her daughter’s Title XVI disability and
      the recipient. The employee accessed the                 Title II survivors’ benefits while acting as her
      recipient’s SSA record to change the direct              representative payee from April 2006 through
      deposit information to reflect her own financial         October 2008. The employee misused her
      institution’s information. She then had the funds        daughter’s benefits to pay for her son’s living
      redirected and deposited into her own personal           expenses instead of paying for her daughter’s
      bank account.                                            care. The SSA fraud loss is $27,614.
      The employee was terminated in May 2010.                 The employee remains on indefinite suspension
                                                               and is awaiting a hearing with the Merit Systems
                                                               Protection Board. On April 15, 2010, the
                                                               employee entered into a Pre-Trial Diversion
Employee Fraud: Former SSA Employee
                                                               (PTD). The conditions set forth in the PTD
Commits 33 System Access Violations
                                                               consisted of reporting to the U.S. Pretrial
      Our Seattle office investigated an SSA claims            Services for 12 months and paying restitution of
      representative for exceeding authorized access           $27,614 to SSA. Additional conditions included
      of the SSA database. The investigation revealed          that she refrain from the use of alcohol, refrain
      that the employee used her access to commit              from any unlawful use or possession of narcotics
      33 systems access violations by entering                 or other controlled substance without a legal
      fraudulent and improper information into the             prescription, and that she participate in mental
      SSA mainframe system.                                    health counseling.
      The employee fraudulently processed SSN
      applications and made improper citizenship
      coding changes to SSA records belonging
      to friends and acquaintances. Her actions
      resulted in two illegal aliens receiving SSN
      cards authorizing employment, and one illegal
      alien receiving an SSN card indicating legal
      U.S. citizenship.
      The employee was terminated in April 2010.




April 1, 2010 - September 30, 2010                                                                           19
Semiannual Report to Congress




Threats and Assaults Against SSA Employees
  Employee safety is of paramount concern to SSA and OIG. Social Security employees must follow extreme caution
  as the number of Americans who depend on government services increases during times of economic challenge.
  The Inspector General’s OI shares the responsibility for investigating reports of threats or force or use of
  force against Agency employees with the Department of Homeland Security’s Federal Protective Service,
  which has jurisdiction over physical property owned or leased by the Federal government, and with local
  law enforcement if the activity occurs off federally owned or leased property.
  The following case summaries highlight significant investigations we conducted during this reporting period
  in which SSA employees were threatened by members of the public.


Felon Threatens SSA Employee                                Missouri SSA Office Employees Threatened

     Acting on a referral received from the Murray,            Acting on information provided via a 911
     Utah SSA office, our Salt Lake City office                emergency call, our St. Louis office investigated
     investigated a Title II disability applicant for          a Title II retirement beneficiary for making threats
     making threats toward an SSA employee, after              toward employees of the St. Peters, Missouri SSA
     the man was denied benefits. At the time of               office. The man was upset about not receiving
     his arrest, the applicant, who was a convicted            his retirement payment and threatened to “take
     felon, possessed a firearm.                               hostages.”
     In June 2010, after pleading guilty to being              In July 2010, following his plea of guilty
     a felon in possession of a firearm, the man               to making a terroristic threat, the man was
     was sentenced to 12 months and one day of                 sentenced to five years’ supervised probation.
     incarceration and 36 months of supervised
     release.




20                                                                       April 1, 2010 - September 30, 2010
                                                                            Semiannual Report to Congress




Fugitive Felon Enforcement Program
  The OIG’s Fugitive Felon Enforcement Program identifies individuals reported to have outstanding felony
  arrest warrants and outstanding warrants for parole and probation violations. SSA shares its location
  information for wanted felons with local law enforcement agencies to assist in their apprehension efforts. In
  turn, these agencies advise SSA on the disposition of the warrant so that appropriate administrative action
  on the benefits may be taken.

OIG’s Management and Fugitive Enforcement Program

  Our data-sharing efforts with law enforcement agencies contributed to the arrest of 6,574 subjects during
  FY 2010, and those efforts have led to over 94,000 arrests since the program’s inception in 1996. The
  following are some examples of fugitive felon activities during the past six months:
  • OIG agents and members of the U.S. Marshals Service, Joint Fugitive Task Force in New Haven, Connecticut
  arrested an SSA beneficiary wanted on the illegal use of a Credit Card, a Class D felony. The warrant dated
  January 26, 2010 was issued by the Milford (Connecticut) Police Department.
  • OIG agents and members of the Los Angeles Police Department, Cold Case Fugitive Felon Unit, reported
  the arrest of an SSA beneficiary wanted on an outstanding warrant dated April 10, 2007. The subject was
  arrested for Willful Infliction of Corporal Injury on a Spouse and Assault with a Deadly Weapon.
  • OIG agents and members of the San Diego Fugitive Task Force reported the arrest of an SSA beneficiary
  wanted on an outstanding warrant dated April 2, 2010. The subject was arrested for Possession of a
  Narcotic Controlled Substance.
  • OIG agents and the Minnesota Fugitive Task Force reported the arrest of an SSA beneficiary wanted
  on felony warrants for Production of Child Pornography and Receipt of Child Pornography dated July 22,
  2009. For two years, the subject had not been seen after law enforcement executed a search warrant on
  his residence. The subject was located and apprehended in the Northern District of Iowa.




    Data-sharing efforts
    with law enforcement
    agencies contributed
    to the arrest of 6,574
    subjects in FY 2010,
    and 94,000 arrests
    since the program’s
    inception in 1996.



April 1, 2010 - September 30, 2010                                                                          21
Semiannual Report to Congress




Legal Impact Initiatives
  Section 1140 Enforcement
  In our enforcement of Section 1140 of the Act, OCIG has initiated an aggressive offensive against misleading
  website operators by using the authority delegated by the Commissioner and Inspector General under Section
  1140 of the Act. Section 1140 prohibits the misuse of SSA program words, emblems, and symbols in a
  manner that conveys the false impression of an affiliation with, or endorsement by SSA.
  A recent Section 1140 development involves the operation of websites designed to appear as either the
  official SSA website or to have an affiliation with SSA for the purpose of charging a fee for an otherwise
  free SSA Application for a Social Security Card (“Form SS-5”). SSA provides the Form SS-5 at no cost on
  its website, as well as at SSA Field Offices and other SSA-approved locations throughout the nation. To
  lure unsuspecting consumers to these websites, violators contract with Internet search companies and web-
  hosting entities to ensure that Internet searches for terms related to obtaining a new or replacement Social
  Security Card will result in potential customers being directed to their websites instead of SSA’s official site.
  The OIG, in conjunction with DOJ, has just successfully concluded a significant case involving such a scheme
  (see below Press Release). The OIG is now planning a proactive Section 1140 educational outreach program
  that is targeted to the Internet industry. The OIG is committed to continuing its Section 1140 enforcement
  efforts as experience has taught us that vigilance in enforcing Section 1140 as well as expanding public
  awareness can have a significant positive effect on entire industries.

Houston Company Penalized $325,000 for Operating Misleading Social Security-Related Websites

     In August, Houston-based Net Forms, LLC, agreed to pay a $325,000 CMP to SSA and discontinue
     operating several websites designed to entice members of the public to pay a fee for SSA’s Application for
     a Social Security Card that SSA offers free of charge
     The Government filed a civil action in the U.S. District Court for the Southern District of Texas, charging that
     several websites operated by Net Forms, LLC violated Section 1140 of the Act for their use of SSA’s words,
     letters, symbols, and emblems in a manner that gave the false impression that SSA approved, endorsed, or
     authorized the websites. The Government further charged that operation of the websites violated provisions
     of Section 1140 related to the fee-based reproduction or distribution of an SSA form or publication, as well
     as provisions related to providing fee-based assistance to individuals in obtaining a product or service that
     SSA provided free of charge. SSA provides the Form SS-5 at no cost on its website, www.socialsecurity.gov,
     as well as at all SSA field offices and other SSA-approved locations throughout the nation.
     The website operators contracted with Internet search companies to ensure that online searches for terms
     related to obtaining a new or replacement Social Security Card would direct potential customers to the
     websites. Thousands of individuals viewed the websites, and Net Forms, LLC accumulated significant
     revenues from its sale of the SSA form. Fees for the form reached as high as $29.99, plus an additional
     $9.99 fee for an automatically renewable annual membership fee to a forms database also operated by
     Net Forms, LLC.
     The successful resolution of the case was the result of a joint effort between the SSA OIG and the U.S.
     Attorney’s Office, Southern District of Texas.


22                                                                           April 1, 2010 - September 30, 2010
                                                                             Semiannual Report to Congress




VALUE
The second goal of the OIG Strategic Plan is Value. All OIG initiatives strive to provide value to SSA,
the Congress, other key decision makers, and the public by delivering timely and reliable audit, investigative,
and legal products and services. To achieve the intended value, these products and services must effectively
meet the needs of all whom we serve while maximizing our available resources. To do this, we integrate
best-practice strategies and the newest technologies to increase our productivity and maximize our return on
investment to the public.

Value Attained Through Audits
  Many of our audits are focused on identifying SSA programmatic and operational areas where funds could
  be put to better use. In addition, we often question approaches and their accompanying costs, and we
  recommend alternatives to yield program and operational savings.
  During this reporting period, our auditors issued 65 reports, identifying over $61.8 million in questioned
  costs and about $1.1 billion in Federal funds that could be put to better use. Some of our most notable
  audits are summarized below.


Aged Beneficiaries in Need of Representative Payees
  The objective of our audit was to identify potential vulnerabilities of direct payment to aged beneficiaries
  and determine whether additional safeguards are needed to ensure their funds are properly managed.
  SSA selects representative payees for Title II and XVI beneficiaries when representative payment would serve
  the beneficiaries’ interests. SSA may not be aware of aged beneficiaries who need representative payees.
  Medical statistics state that up to 50 percent of individuals over age 85 may suffer from Alzheimer’s disease
  or dementia. As of December 2008, we had identified about 5 million beneficiaries who were over age
  85. However, only 231,817 (4.6 percent) had representative payees.
  We estimate that approximately 1 million aged beneficiaries who received about $1 billion in monthly benefits
  may have been incapable of managing or directing the management of their benefits. This occurred, in
  part, because SSA did not identify aged beneficiaries who became incapable after their initial entitlement
  to benefits. In addition, individuals or organizations who managed the benefits were not always aware of
  SSA’s Representative Payment Program.
  In addition, we found that 34 beneficiaries, receiving $40,162 in monthly benefits, refused to participate in
  our review and may have been at risk.
  We recommended that SSA: (1) take appropriate action for the 61 incapable beneficiaries identified by our
  audit; (2) contact the 34 beneficiaries who refused to participate in our review and determine whether they
  are capable of managing their benefits; (3) follow up on the one SSI recipient who could not be located to
  verify when the recipient left the United States, whether the recipient is still alive, and if any overpayments
  were made; (4) establish additional controls to better identify aged beneficiaries in need of representative
  payees; and (5) evaluate the need for additional representative payee policy for selecting and monitoring
  family members who manage incapable beneficiaries’ funds.
  SSA agreed with four of our five recommendations.



April 1, 2010 - September 30, 2010                                                                            23
Semiannual Report to Congress




Follow-Up of Pending Workers’ Compensation

  Our objectives were to determine the status of corrective actions SSA had taken to address recommendations in
  our September 2005 report, Follow-up of Pending Workers’ Compensation: The Social Security Administration
  Can Prevent Millions in Title II Disability Overpayments (A-08-05-25132), and update the volume of Title II
  disability cases with pending workers’ compensation (WC) claims.
  All States require that employers provide WC insurance for employees in the event they suffer work-related
  injuries or occupational diseases. The Act requires that SSA offset disability benefits for individuals who
  receive Federal, State, or locally administered WC benefits in most States.
  SSA had not taken corrective actions to address recommendations aimed at reducing and managing its
  pending WC workload. As a result, the volume of cases with WC claims pending for two or more years
  increased from 227,615 in January 2005 to 268,825 in November 2009, an 18-percent increase over the
  past four years. In addition, we estimated SSA had overpaid Title II beneficiaries between $44 million and
  $58 million because of unreported WC payments since our June 2003 report.
  Accordingly, SSA needs to: (1) develop a plan for addressing its backlog of Title II disability cases having
  pending WC issues and establish target goals for reducing improper payments resulting from unreported
  WC payments; (2) develop and implement an automated process to ensure the Agency systematically and
  routinely follows up on new pending WC cases; (3) explore systems enhancements that would detect situations
  in which WC is not applicable to prevent personnel from retrieving and analyzing cases that no longer
  require development; and (4) work with OMB to develop legislation that would require that State and local
  governments and other entities that administer WC plans provide the Agency with WC payment information.

Trust Fund Projections
  The objective of our evaluation was to determine how the short- and long-range estimates for cost and income
  presented in the Annual Trustees Reports, fluctuated from year to year and how accurately the projections
  reflected the actual performance of the OASDI Trust Funds.
  The Board of Trustees was established under the Act to oversee the financial operations of the OASDI and
  Disability Insurance Trust Funds. Each year, the Trustees issue an Annual Report on the Social Security Trust
  Funds’ financial status, including projections of future revenue and expenditures.
  Actuarial estimates depend on a broad set of demographic, economic, and programmatic factors along
  with assumptions about those. Because of the extensive number of factors used in the long-range actuarial
  estimates, significant uncertainty surrounds the assumptions.
  Based on our review, we found that the Trustees’ cash projections for CY 2009 significantly differed from
  the actual net cash flow for the low-cost, intermediate, and high-cost assumptions. The Trustees’ cash
  projections for 2010 fluctuated significantly from the 1988 to 2009 Trustees Reports; however, the Trustees
  never projected the Trust Funds cash flow to go negative in 2010. Based on recent news articles, it has
  been indicated that Social Security costs could exceed its income as early as 2010 because the economic
  recession has impacted Social Security’s cash flow far worse than projected. Based on the extensive number
  of economic, demographic, and programmatic factors used in the actuarial projections, future excess cash
  over expenses is difficult to accurately project.




24                                                                       April 1, 2010 - September 30, 2010
                                                                            Semiannual Report to Congress




Benefits Payable to Child Beneficiaries Who No Longer Need Representative Payees
  Our objective was to determine whether SSA had adequate controls to ensure that child beneficiaries whose
  benefits were withheld because they did not have representative payees were paid when they reached age 18.
  SSA appoints representative payees for individuals who cannot manage or direct the management of
  their finances because of their youth or mental and/or physical impairments. When necessary, SSA may
  suspend benefits and initiate a search for a new representative payee. However, upon reaching age 18,
  child beneficiaries generally no longer require representative payees. For our review, we identified 13,739
  child beneficiaries over age 18 that had past-due benefits that were withheld pending the selection of a
  representative payee.
  SSA needed to improve controls to ensure child beneficiaries who reached age 18 were paid benefits that
  had been previously withheld pending the selection of a representative payee. Based on a random sample
  of beneficiaries, we found that SSA did not pay an estimated 13,464 beneficiaries approximately $31.2
  million in withheld benefits.
  Generally, these errors occurred because SSA did not generate a systems alert to identify beneficiaries
  who should have been paid withheld benefits when they reached age 18, or SSA employees did not take
  corrective actions to pay withheld benefits when processing student awards when a child reached age 18.
  We recommended, and the Agency agreed to:
  1. Take corrective action to resolve the benefits withheld from the 49 beneficiaries identified by our audit.
  2. Identify and take corrective action on the population of child beneficiaries over age 18 whose benefits
  were withheld pending the selection of a representative payee.
  3. Improve controls to ensure that child beneficiaries who are capable of managing their benefits are paid
  any benefits that were withheld pending the selection of a representative payee.
  4. Remind SSA employees to review beneficiaries’ payment records when awarding student benefits and to
  take corrective actions to pay previously withheld benefits.




April 1, 2010 - September 30, 2010                                                                           25
Semiannual Report to Congress




Value Attained Through Investigations
  During this reporting period, the efforts of our investigators yielded significant results arising from the
  successful prosecution of cases that we developed. Our investigators achieved over $184 million in monetary
  accomplishments, with over $35 million in SSA recoveries, restitution, fines, and settlements/judgments;
  and over $149 million in projected savings from investigations resulting in the suspension or termination
  of benefits.
  The following table represents the efforts of OI personnel nationwide to recover SSA funds paid in fraudulent
  benefits or through other illegal actions.

                                              SSA Funds Reported

                                               10/1/09 - 3/31/10     4/1/10 - 9/30/10    Fiscal Year 2010

             Recoveries                           $15,592,300          $20,838,793          $36,431,093
             Fines                                    $889,533            $812,553            $1,702,086
             Settlements/Judgments                    $495,766            $398,905              $894,671
             Restitution                          $12,929,476         $13,282,859           $26,212,335
             Estimated Savings                   $143,941,121        $149,265,770          $293,206,891
             TOTAL                              $173,848,196         $184,598,880         $358,447,076

  The following case summaries are indicative of the more than 3,300 investigations that we closed during
  this reporting period. The cases we have highlighted illustrate the many instances where our investigative
  efforts have resulted in a significant return on investment.

Disability Program Fraud: Teacher Uses                             Disability Program Fraud: Mayor
Multiple Identities to Receive SSA Benefits                        Convicted of Theft of Government Funds

     In response to a referral from our Fraud Hotline,               Acting on information from the South Carolina
     our Los Angeles office investigated a woman who                 State Law Enforcement Division, our Columbia
     received Title II and Title XVI disability benefits             office investigated a Title II disability beneficiary
     using multiple fraudulent identities. While                     for concealing his work activities. The man
     working as a teacher, the woman used her                        concealed his income as the mayor of a South
     own identity to obtain Title II disability benefits,            Carolina town, as well as his employment with
     a second identity to obtain Title XVI disability                a tax service company.
     benefits, and a third identity to obtain both Title             In July 2010, after a jury found the man guilty
     II and Title XVI disability benefits.                           of theft of government funds and mail fraud, the
     In May 2010, after pleading guilty to theft of                  man was sentenced to 36 months’ incarceration,
     government funds, the woman was sentenced                       three years’ supervised release, and was ordered
     to 12 months’ home detention, four years’                       to pay restitution of $243,741 to SSA.
     probation, and was ordered to pay restitution
     of $287,818 to SSA.



26                                                                             April 1, 2010 - September 30, 2010
                                                                      Semiannual Report to Congress




Disability Program Fraud: Laboratory                   Representative Payee Fraud:
Employee Conceals Wages                                Mother Conceals Children’s Placement
                                                       in State Care
  Acting on a referral provided by DOJ/U.S.
  Bankruptcy Trustee’s Office, our Phoenix office        Acting on a referral from the Albuquerque, New
  investigated a Title II disability beneficiary for     Mexico SSA office, our El Paso office investigated
  concealing his work activity. The investigation        a woman who received Title II mother’s benefits
  revealed the man filed for bankruptcy (which           and served as the representative payee for her
  was discharged in January 2006), and he was            children’s Title II survivors’ benefits. The woman
  employed in a laboratory in various capacities         failed to notify SSA that, since December
  from 2006 through 2009.                                2005, her children were in the custody of the
                                                         New Mexico Children, Youth, and Families
  In April 2010, after pleading guilty to theft, the     Department.
  man was sentenced to 60 months’ incarceration,
  three years’ supervised release, and was ordered       In May 2010, after pleading guilty to Social
  to pay restitution of $246,988 to the Internal         Security fraud, the woman was sentenced to
  Revenue Service, and $1,438,119 to the U.S.            five months’ incarceration, five months’ home
  Trustee. The man previously paid restitution of        detention, and was ordered to pay restitution
  $41,998 to SSA.                                        of $69,517 to SSA.

                                                       Representative Payee Fraud: Grandmother
Disability Program Fraud: Veteran
                                                       Forfeits Custody of Grandchildren
Feigns Paralysis
                                                         In response to information provided by the
  Our Chicago office, along with the Illinois
                                                         Rocky Mount, North Carolina SSA office, our
  Department of Healthcare (IDH) and the
                                                         Atlanta office investigated a representative
  Department of Veterans Affairs (VA) OIG,
                                                         payee who received Title XVI disability benefits
  participated in the joint investigation of a Title
                                                         on behalf of her grandchildren. The woman
  II disability beneficiary and his wife. Before
                                                         failed to report that she voluntarily forfeited
  deployment by the U.S. Army in support of
                                                         custody of her grandchildren in August 2003,
  Operation Iraqi Freedom, the man was involved
                                                         and she continued to receive benefits on their
  in a car accident resulting in his claim of
                                                         behalf until May 2007.
  paralysis, and subsequent medical discharge
  from the U.S. Army. Based on his medical               The woman pled guilty to wire fraud, and, in
  discharge, as well as false statements provided        May 2010, was sentenced to serve six months’
  by the couple, SSA and VA awarded disability           home detention, three years’ probation, and was
  benefits to the man. Our investigation revealed        ordered to pay restitution of $53,398 to SSA.
  the man’s paralysis did not exist.
  The couple pled guilty to false statements, mail
  fraud, conspiracy to commit mail fraud, and wire
  fraud. In April 2010, the man was sentenced
  to two terms of incarceration (78 months and
  60 months to run concurrently), and his wife
  was sentenced to 24 months’ incarceration.
  The couple was ordered to pay restitution of
  $28,730 to SSA and $241,244 to VA and IDH.




April 1, 2010 - September 30, 2010                                                                      27
Semiannual Report to Congress




Representative Payee Fraud: Mother                        Deceased Payee Project: Woman
Provides False Information to SSA                         Accesses Deceased Sister’s Bank Account
     Our Baltimore office, acting on information            Our Birmingham office conducted an investigation
     provided by the Maryland Department of                 as part of the National Deceased Payee Project
     Human Resources OIG, investigated a woman              (BIC-D), which identifies widows and widowers of
     who served as representative payee for her             Title II beneficiaries whose benefits continue to be
     daughter’s Title XVI disability benefits. From         paid after their death. This investigation revealed
     2000 through 2009, the woman provided false            that SSA benefits continued to be deposited to a
     information to SSA concerning her income and           deceased beneficiary’s bank account after her
     her daughter’s living arrangements.                    death in March 2003. From April 2003 through
                                                            March 2008, the deceased’s sister accessed the
     In July 2010, after pleading guilty to theft, the
                                                            bank account and converted the funds to her
     woman was sentenced to five years’ incarceration
                                                            own use.
     (suspended), five years’ supervised probation, and
     was ordered to pay restitution of $41,355 to SSA.      In April 2010, after pleading guilty to theft of
                                                            government funds, the woman was sentenced
                                                            to six months’ home detention, followed by
Representative Payee Fraud: Nephew                          five years’ probation, and was ordered to pay
Removed from Aunt’s Custody                                 restitution of $64,860 to SSA.
     Acting on information provided by the
     Uniontown, Pennsylvania SSA office, our              Deceased Payee Project: Daughter Cashes
     Pittsburgh office investigated a representative      Deceased Mother’s SSA Checks
     payee who received Title XVI disability benefits
     on behalf of her nephew. In June 2004, the             Our Phoenix office conducted an investigation
     child was removed from the woman’s care and            as part of the BIC-D project. This investigation
     placed in the custody of Children Youth Services.      revealed that benefits were paid to a deceased
                                                            beneficiary after her death in April 2004.
     In June 2010, after pleading guilty to failure to      From May 2004 through November 2007,
     report an event, the woman was sentenced to            Social Security mailed benefit payments to
     five years’ probation and was ordered to pay           the deceased’s address of record, which the
     restitution of $27,165 to SSA.                         deceased’s daughter cashed and converted for
                                                            her own use.
Deceased Payee Project: Son Appropriates
                                                            In May 2010, following a plea of guilty to theft
Mother’s SSA Benefits After Her Death                       of government funds, the woman was sentenced
     Our Cleveland office conducted an investigation        to five years’ probation and was ordered to pay
     as part of the BIC-D project. This investigation       restitution of $38,086 to SSA.
     revealed that benefits were paid to a deceased
     beneficiary after her death in January 2006.
     From January 2006 through July 2008, the
     deceased’s son converted to his own use the
     SSA funds paid to his deceased mother via
     direct deposit.
     After pleading guilty to theft of government
     funds, the man was sentenced in July 2010 to
     two years’ probation, fined $7,500, and was
     ordered to pay restitution of $31,420 to SSA.

28                                                                    April 1, 2010 - September 30, 2010
                                                                              Semiannual Report to Congress




Cooperative Disability Investigations Program
  Our CDI Program continues to be one of our most successful initiatives, contributing to the integrity of
  SSA’s disability programs. CDI is a joint effort of the OIG, SSA, DDS, and State and local law enforcement
  personnel. Established in 1998 with units in just five states, our CDI program now has 22 Units in 19 States.
  The Units work to obtain sufficient evidence to identify and resolve issues of fraud and abuse related to initial
  and continuing disability claims.
  The following CDI case summaries highlight major investigations we conducted during this reporting period
  which enhanced SSA program integrity and the reliability of SSA’s operations.

Man Conceals Operation of Siding Business                     Title XVI Recipient Wanted for
                                                              Outstanding Felony Warrant
  The Oakland CDI Unit investigated a 31-year-
  old man receiving Title II disability benefits due             The Chicago CDI Unit investigated a 31-year-
  to back problems. According to the Sutter                      old woman receiving Title XVI disability benefits
  County (California) Probation Office, the                      due to mental retardation.
  man received probation for a welfare fraud
                                                                 During a consultative examination (CE) for one
  conviction, after failing to report his workers’
                                                                 of her minor children, the woman provided
  compensation settlement of $70,000. During
                                                                 significant background and developmental
  an appointment, the man’s probation officer
                                                                 information regarding her child. The woman
  observed the man wearing a T-shirt advertising
                                                                 indicated that she cared for her three children,
  a residential siding business.
                                                                 was able to travel independently, and did
  The investigation revealed the man and his                     not have any problems communicating.
  brother operated a siding business founded by                  Because the woman provided information
  their father. The man informed investigators                   without apparent signs of mental retardation,
  that he held various positions at the company,                 the Illinois DDS referred this case due to
  such as supervisor, contractor, and translator.                suspected malingering.
  He advised that his brother paid him in cash,
                                                                 Our investigators discovered the woman had an
  and he received tips.
                                                                 active felony warrant for theft in Iowa. During
  In addition, the investigation determined that                 an interview, the woman indicated that she
  the man negotiated the purchase and sale of                    cared for her three minor children, drove her
  cattle at his father’s cattle ranch. He reported               two oldest children to school or accompanied
  his father paid for his travel, expenses, and at               them on the city bus, and assisted as a volunteer
  times paid him $1,000 in cash.                                 on school field trips. In addition, the woman
                                                                 stated that she could perform work from her
  The Yuba City, California SSA office terminated                home. With the assistance of law enforcement,
  the man’s Title II disability benefits due to                  the CDI Unit team leader subsequently arrested
  medical improvement.                                           the woman.
                                                                 The Chicago SSA office determined the woman
                                                                 was no longer entitled to disability benefits due to
                                                                 medical improvement. In addition, the woman’s
                                                                 Title XVI disability benefits were suspended due
                                                                 to the outstanding felony warrant and her arrest.



April 1, 2010 - September 30, 2010                                                                               29
Semiannual Report to Congress




Woman Suspected of Malingering                                    College Student Feigns Mental Disorders
                                                                  to Receive Disability Benefits
     The Houston CDI Unit investigated a 32-year-
     old woman who applied for Title II and Title                    The Salem CDI Unit investigated a 39-year-
     XVI disability benefits due to schizophrenia,                   old woman who applied for Title II disability
     bipolar disorder, and a learning disability. While              benefits due to bipolar disorder, seasonal
     applying for benefits, the woman’s mother                       affective disorder, obsessive-compulsive
     reported that her daughter was dependent                        disorder, attention-deficit disorder, anxiety,
     on others for daily activities and required                     and depression. The woman reported difficulty
     constant supervision. Additionally, she had                     focusing and dealing with others. The Oregon
     difficulty socializing, hearing, remembering,                   DDS referred this case due to suspected
     and following instructions.                                     malingering.
     After an initial benefit denial, the woman filed a              The investigation determined the woman was a
     claim for reconsideration and submitted medical                 full-time college student who took both online
     records indicating a diagnosis of schizophrenia.                and classroom courses. During an interview,
     During a CE, examiners observed the woman                       the woman was friendly, cooperative, and
     clutching a doll and a coloring book. The                       never displayed signs of discomfort around the
     Texas DDS referred this case due to suspected                   investigators. At the interview’s conclusion,
     malingering.                                                    she apologized for the condition of her home
                                                                     and explained that due to work and school
     The CDI Unit’s investigation determined the
                                                                     demands, she did not have time to unpack her
     woman was a normal, functioning adult,
                                                                     belongings. The investigation also revealed the
     who lived with her boyfriend and worked as
                                                                     woman worked part-time performing clerical
     a full-time waitress. In addition, she was an
                                                                     work for a research company.
     occasional narcotics informant for the police.
                                                                     The Oregon DDS denied the woman’s
     The Texas DDS denied the woman’s application
                                                                     application for Title II disability benefits.
     for Title II and Title XVI disability benefits.


                    Disability Applicant Conceals Ownership of Businesses
                        The Cleveland CDI Unit investigated a 40-year-old man who applied for Title
                        II and Title XVI disability benefits due to schizophrenia and depression. The
                        man reported that he lived alone, heard voices, and spent his days watching
                        TV, sleeping, praying, and fighting with his mother. He also advised that he
                        was unable to leave his home unaccompanied, drive, or work.
                        The Ohio DDS referred this case due to conflicting medical evidence
                        in comparison to statements made by the man regarding his disability.
                        The CDI Unit’s investigation determined the man owned and managed
                        an auto-detailing business and a beauty salon. Furthermore, the man
                        informed investigators that he lived with his wife and children, and that
                        he won a cruise vacation from a local vendor.
                        The Ohio DDS denied the man’s application for Title II and Title XVI
                        disability benefits.




30                                                                             April 1, 2010 - September 30, 2010
                                                                                                        Semiannual Report to Congress




     The following table highlights the successes of the CDI program, which yielded more than $122 million
     in SSA program savings during this reporting period and more than $240 million during FY 2010.
                   Cooperative Disability Investigations Program Results
                                            April 1, 2010 - September 30, 2010
                                              Allegations            Confirmed                   SSA                   Non-SSA
              State
                                               Received             Fraud Cases                Savings1                Savings2
              Arizona                                30                      91                7,955,956              3,747,105
              Arkansas                               75                      34                3,067,618              1,624,050
              California3                           307                     100                8,601,872              6,714,907
              Colorado                               73                      45                4,416,125              2,455,515
              Florida                                90                      27                2,935,244              1,778,380
              Georgia                               186                     113               10,860,503              6,174,479
              Illinois                               80                      54                3,959,712              2,390,754
              Louisiana                              97                      41                3,413,820              2,261,074
              Massachusetts                          68                      32                2,824,867              2,135,783
              Missouri4                             107                      41                3,253,089              1,775,419
              New Jersey                            100                      19                3,704,936              2,512,656
              New York                               73                      56                4,815,157              3,763,136
              Ohio                                  302                     118                9,879,599              6,850,847
              Oregon                                140                     100                9,567,524              6,109,650
              South Carolina5                       109                      72                6,304,698              3,511,112
              Tennessee                              59                      30                3,064,250              1,454,912
              Texas6                                400                     200               19,734,542             11,830,200
              Virginia                              117                      61                6,489,000              4,210,316
              Washington                            109                      90                7,844,024              4,975,210
              TOTAL (4/1/10 - 9/30/10)             2,522                  1,324             $122,692,536 $76,275,505
              TOTAL (10/1/09 - 3/31/10)            2,407                  1,531             $117,550,757 $74,494,285
              FY 2010 TOTAL                       4,929                   2,855            $240,243,293 $150,769,790
 1
   SSA program savings are reported at a flat rate of $90,125 for initial claims that are denied as a result of CDI investigations. When a CDI
 investigation supports the cessation of an in-pay case, SSA program savings are calculated by multiplying the actual monthly benefit times 60 months.
 2
   Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a result of a CDI investigation,
 using estimated or actual benefit amounts documented by the responsible agency.
 3
   California has two units, one in Los Angeles and the other in Oakland.
 4
   Missouri has two units, one in Kansas City and the other in St. Louis. The Kansas City unit was established on September 30, 2010.
 5
   The Columbia, South Carolina unit was established on December 21, 2009.
 6
   Texas has two units, one in Dallas, and the other in Houston.

April 1, 2010 - September 30, 2010                                                                                                                  31
Semiannual Report to Congress




Value Attained Through Legal Initiatives
  OCIG’s efforts to administer the portion of the CMP program which deals with violators of Section 1129 of
  the Act maximize the resources available to us and create a positive return on investment. Section 1129 of
  the Act allows for the imposition of a CMP against those who make false statements or representations in
  connection with obtaining or retaining benefits or payments under Titles II, VIII, or XVI of the Act. In addition,
  CMPs may be used to penalize representative payees for wrongful conversion of payments made under the
  Social Security programs, and to penalize individuals who knowingly withhold a material fact from SSA.
  After consultation with the DOJ, OCIG is authorized to impose penalties of up to $5,000 for each false
  statement, representation, conversion, or omission. A person may also be subject to an assessment, in lieu
  of damages, of up to twice the amount of any resulting overpayment.
  The following table and cases highlight the value achieved through our Section 1129 efforts for this
  reporting period.




                       Civil Monetary Penalty Activity Under Section 1129

                                                  10/1/09 - 3/31/10    4/1/10 - 9/30/10    Fiscal Year 2010

     Cases Received                                     1,001                 816                1,817
     Cases Initiated                                      74                  65                   139
     Cases Closed                                        927                  731                1,658
     Penalties and Assessments Imposed              $1,965,578           $1,948,302           $3,913,880
     Number of Hearings Requested                         8                    1                    9




32                                                                          April 1, 2010 - September 30, 2010
                                                                      Semiannual Report to Congress




Representative Payee Makes False                       Illinois Wedding Consultant Settles
Statements to SSA; Converts Benefits                   for $91,000 Civil Monetary Penalty
for Personal Use
                                                         An Illinois woman had been improperly
  Between August 2005 and July 2008, the                 receiving Title II benefits since the mid 1970s.
  subject made false statements to SSA regarding         A CDI investigation by an OIG Special Agent
  her son’s living arrangements while serving as         in Chicago revealed significant work activity by
  his representative payee. She also converted           the subject since 2004. The subject and her
  her son’s Social Security benefits for her own         husband owned a wedding/bridal production
  use, despite false statements that she used the        company, handling various wedding-related
  benefits for his care and support.                     services, including videotape, photography,
                                                         music, disk jockey services, and wedding album
  In a voluntary written statement to an OIG             creation.
  special agent, the subject admitted to making
  false statements to SSA and stated that her son        The subject was part-owner, and while she did
  had not lived with her since July 2005. She            have significant health issues, she managed the
  further admitted to cashing her son’s benefit          company, managed the employees, worked as
  checks at a local pawn shop and converting             a DJ for weddings, manned a booth at bridal
  the funds to her own personal use.                     shows, as well as created wedding albums.
  The subject wrongfully converted over $21,000          The CDI investigation consisted of statements
  of her son’s benefits to her own personal use          from former employees, video surveillance,
  while acting as his representative payee. OCIG         and a ruse “bride” shopper. Her attorney
  pursued a CMP against the subject and imposed          has agreed that she will repay the penalty of
  a penalty of $44,000 and an assessment of              $56,701 and assessment of $34,695 for a
  $21,016, for a total CMP of $65,016.                   total of $91,396, and she has written a letter
                                                         in which she acknowledges working.


New York Messenger Service Driver                      Michigan Representative Payee Agrees
Collects Disability Benefits                           to $37,000 Civil Monetary Penalty
  A New York man improperly received Disability          OCIG pursued a CMP enforcement action
  Insurance Benefits (DIB) and SSI while concealing      involving an individual representative payee
  substantial gainful activity as a driver for a         that at one time acted as representative payee
  messenger service.                                     for over 150 Social Security beneficiaries.
  During a Continuing Disability Review (CDR),           The CMP enforcement action was the result of an
  the subject falsely stated that he had not worked      OA effort focusing on individual representative
  while receiving over $21,000 in benefits.              payees with large numbers of beneficiaries
  However, the area CDI Unit conducted                   entrusted to their care. The OA team noted
  surveillance, observed the subject’s work activity     what it deemed to be irregularities in the
  and interviewed the subject’s employer to              representative payee’s accounting practices,
  confirm that the subject engaged in substantial        irregularities in the subject’s requests to become
  gainful work activity.                                 a representative payee, and discrepancies in the
                                                         reporting of beneficiary expenditures.
  OCIG imposed a $10,000 CMP and a
  $21,873 assessment against the subject for a           A settlement was reached in which the subject
  total recovery of $31,873.                             agreed to pay a $37,000 CMP, without their
                                                         admission of liability.

April 1, 2010 - September 30, 2010                                                                      33
Semiannual Report to Congress




Woman Collects SSI While Operating                        Ohio Woman Fails to Notify SSA
Lucrative Day-Care Business                               of Mother’s Death
     A Louisiana woman ran a lucrative day-care             An Ohio woman failed to notify SSA of the death
     business while obtaining SSI and DIB payments          of her mother for almost three years. During
     for a severe back impairment.                          that time, she continued to receive her mother’s
                                                            retirement benefits that were direct-deposited
     While she represented to SSA that she was unable
                                                            into a joint bank account that she shared with
     to work, she ran the day-care business, cared
                                                            her mother.
     for children and supervised eight employees.
                                                            Although she knew that she was not entitled to
     In addition to the almost $51,000 she received
                                                            receive her mother’s retirement benefits, she
     in SSI and DIB payments, she paid herself a net
                                                            failed to notify SSA of her mother’s death and
     income of $91,000 in 2007 and $116,000 in
                                                            converted the benefits to her own use. During
     2008.
                                                            an interview with OIG special agents, the
     She entered into a settlement with OCIG by             subject admitted that she continued to receive
     which she agreed to pay a penalty of $41,865           and spend the benefits.
     and an assessment of $73,135, totaling
                                                            To settle the CMP enforcement action, the
     $115,000, for making false statements to SSA
                                                            subject agreed to pay a $20,000 CMP and
     to receive benefits to which she was not entitled.
                                                            a $29,151 assessment for a total recovery of
                                                            $49,151.
Florida Man Lies About Mental, Physical
Impairments to Collect SSA Benefits
                                                          Michigan Registered Nurse Signs, Cashes
     A Florida man applied for SSI and DIB                Disability Check of Deceased Relative
     payments claiming numerous mental and
                                                            A Michigan registered nurse served as the legal
     physical impairments that rendered him almost
                                                            guardian for an adult niece who suffered from
     completely incapacitated and unable to walk
                                                            a disability.
     more than a few blocks without resting.
                                                            After her niece died, she failed to notify SSA of the
     After bragging to his friends on the golf course
                                                            death. On the contrary, she falsely represented
     about applying for SSA benefits even though
                                                            that her niece was alive and continued to sign
     he knew he was not disabled, his “friends”
                                                            and cash the checks that SSA sent to her home
     contacted SSA about his scheme. SSA obtained
                                                            on behalf of her niece.
     videos and pictures of the man playing baseball,
     tennis, and engaging in a host of activities that      During an interview with OIG special agents,
     belied his so-called disability.                       the subject admitted that she continued to
                                                            sign and cash the checks for four years after
     Undaunted, the man appealed a penalty
                                                            her niece died. The subject agreed to pay a
     proposed by OCIG, but following a hearing
                                                            $10,000 CMP and a $23,695 assessment for
     in which several members of his community,
                                                            a total recovery of $33,695.
     including his former pastor, testified about his
     numerous physical and community-related
     activities, an ALJ upheld a $60,000 penalty,
     finding the man culpable of fraud, perjury, and
     of making numerous false statements to SSA.



34                                                                    April 1, 2010 - September 30, 2010
                                                                      Semiannual Report to Congress




New York Representative Payee Collects                 Arkansas Woman Claims Husband’s
SSI Benefits on Behalf of Son in Foster Care           W-2 Forms As Her Own
  A New York woman collected SSI as the                  An Arkansas woman who applied for Title II
  representative payee for her minor son while           disability benefits was penalized $22,000
  he resided in foster care. Although the subject        for submitting 11 false W-2 forms from work
  knew that her son resided in foster care, she          allegedly performed from 1988 to 1992.
  applied for SSI benefits on his behalf and falsely
  stated that he resided with her.                       A Social Security Claims Representative
                                                         compared these earnings with the woman’s
  While the subject knew that she was not                husband’s earnings, and discovered that the
  eligible to receive benefits on her son’s behalf,      earnings were already posted to his SSA record.
  she collected over $14,000 in benefits and             Further investigation confirmed that the earnings
  converted them to her own use for 14 months.           were, in fact, from his work and not hers.
  In an interview with OIG special agents, the           An ALJ upheld OCIG’s proposed penalty in
  subject admitted that she made a false statement       full even though no SSA benefits were paid to
  to SSA regarding her son’s living arrangements         the woman.
  and had converted the benefits to her own use.
  In a CMP enforcement action, OCIG imposed            Albuquerque Woman Collects Benefits
  a $30,000 CMP and a $14,148 assessment
                                                       Intended for Daughters
  against the subject for a total recovery of
  $44,148.                                               An Albuquerque mother applied to be the
                                                         representative payee for her two daughters’
                                                         Social Security benefits. She falsely told SSA
New York Woman Collects SSI for                          that the girls lived with her and that she cared
Children Who Do Not Live With Her                        for them when in fact neither child resided with
  A New York woman collected SSI as the                  her.
  representative payee of her three minor children       For two years, she received and converted to
  who did not live with her.                             her own use over $20,000 of their benefits.
  Although the subject knew that her children            OCIG settled the case for a $10,000 penalty
  did not reside with her, she made numerous             plus return of the $20,186 overpayment, to be
  false statements to SSA in representative payee        deducted from the woman’s own monthly SSI
  reports indicating that she used the SSI payments      benefit checks.
  for the care and support of her children.
  While the subject knew that she was not eligible
  to receive benefits on her children’s behalf,
  she collected over $22,000 in benefits and
  converted them to her own use. In a CMP
  enforcement action, OCIG imposed a $15,000
  CMP and a $22,785 assessment against the
  subject for a total recovery of $37,785.




April 1, 2010 - September 30, 2010                                                                     35
Semiannual Report to Congress




PEOPLE
The third goal of the OIG Strategic Plan is People. The collective effort of our employees continues to
be the driving force behind this organization’s success in meeting its mission. We provide an encouraging and
rewarding work experience with the goal of retaining these exceptional individuals. OIG leadership fosters
an environment where employees can realize their potential through training and developmental programs.
OIG components convene training sessions to inform their employees about new procedures at various levels
of our organization. In addition, the OIG Organizational Health Committee conducts an annual assessment
of employee satisfaction levels and addresses employee concerns.


Budget
  For FY 2010, our annual appropriation was $102.6 million, which supported an estimated end-of-year
  staffing level of 590. The salaries and benefits of our employees accounted for 86 percent of our spending.
  We used the remaining 14 percent for necessary expenses such as travel, training, communications,
  reimbursable work authorizations and general procurements, as well as to provide for basic infrastructure
  needs such as rent and interagency service agreements. The FY 2010 budget supported our efforts
  to meet and exceed the expectations set forth in our Strategic Plan for Fiscal Years 2006 – 2010, Fifth
  Edition. The goals and accomplishments measured in our Strategic Plan are also published in the Annual
  Congressional Budget Justification.


Human Resource Planning and Management
  We actively pursue and work to retain the best possible employees. First, our staffing plan forecasts employee
  departures based on historical trends and human resource data, which allows us to establish optimal
  timeframes for recruiting new employees. Moreover, OIG managers monitor staffing to ensure that vacant
  positions are filled promptly, ensuring that OIG components have the ability to fulfill their respective missions.
  Our human resource specialists and recruiters actively seek out and participate in national and virtual
  career fairs in our ongoing effort to attract the best and brightest talent to OIG. Ongoing evaluation
  and updating of our recruitment displays and brochures continue to enhance our outreach efforts. These
  events enable us to actively recruit underrepresented groups in the labor market, enabling us to maintain
  a truly diverse workforce. OIG hired 17 employees during the second half of FY 2010. Of these 17,
  eight individuals (47 percent of new hires) were from minority groups. These efforts yielded increases in
  our minority population of Black males, Hispanic males, and Asian/Pacific Islander males.
  Once we identify the best candidates, we employ a structured interview process to fairly assess their skills
  and qualifications. This process has been instrumental in predicting the future success of new employees.
  Additionally, OIG launched its second Leadership Development Program in FY 2009 as an outreach of our
  succession planning efforts. The 18-month career development program provides participants with leadership
  skills through various assignments, training and mentoring and ensures that OIG has a well-developed cadre
  of highly-qualified candidates for future leadership positions. Of the four program participants who began
  the program in January 2010, one has already been promoted to a leadership position. The remaining
  participants continue to build their leadership competencies through challenging program assignments.


36                                                                          April 1, 2010 - September 30, 2010
                                                                              Semiannual Report to Congress




Information Technology
  We provide and maintain our own IT systems. Our IT specialists value state-of the-art tools and place a high
  priority on ensuring that OIG employees have the latest proven technologies with which to perform their work.
  During this reporting period, OIG IT specialists worked to incorporate electronic case folder capabilities into
  our National Investigative Case Management System (NICMS). NICMS is already a model for investigative
  case management across the Federal Government. In addition, we have automated several administrative
  and business processes and will continue to proceed in this direction to save both time and money.
  In support of the President’s goal to expand electronic services, we maintain an Internet website that is
  both informative and useful to the public. A fraud reporting form is included on the site, which provides
  a secure and confidential mechanism for members of the public to report fraud, waste, and abuse within
  SSA’s programs and operations. A workgroup comprised of administrative specialists, attorneys, auditors,
  and investigative personnel continually monitor the OIG website to ensure that information is accurate and
  up-to-date and to identify enhanced capabilities and opportunities for improvement to the site.
  Finally, our IT staff analyzes industry trends to find new technologies that may enhance our business processes.
  During this reporting period, we have continued to expand the use of virtual technologies and have begun
  to pilot virtual desktop infrastructure for both internal and remote use to reduce hardware and deployment
  costs and enhance data security. We have also utilized virtualization to decrease the number of physical
  servers in use, which has reduced power consumption and increased system up time. OIG IT specialists
  continue to meet the challenge of providing a variety of IT support services for more than 90 OIG offices
  throughout the country.

Outreach Efforts
  We are always seeking new ways to reach out to the wider Federal community as well as to members of the
  public. In a variety of venues, we share our mission of promoting integrity and excellence in Social Security
  programs and operations. These occasions are important opportunities to exchange information and forge
  partnerships. They also give us the chance to educate and inspire public confidence in Federal programs.
  The following are other examples of outreach conducted by OIG officials and personnel:
  • In November 2009, Executive Order 13520 was issued on reducing improper payments and eliminating
  waste in Federal programs. The Order included a number of provisions that require input from the Council
  of Inspectors General on Integrity and Efficiency (CIGIE). The OIG has served as a point of contact for the
  CIGIE in working with OMB on this implementation.
  • In September, OIG coordinated with SSA and developed an instructional online video for all SSA field
  employees on the importance of employee safety in the workplace. The Inspector General, along with the
  SSA Deputy Commissioner, discussed how the two organizations work together to protect employees and
  offered tips on how workers could protect themselves if an incident occurred.
  • The OIG continued its relationship with the National Association of Disability Examiners (NADE), as an
  Assistant Inspector General spoke at NADE’s national conference in Albany, New York in September.



April 1, 2010 - September 30, 2010                                                                             37
Semiannual Report to Congress




  • Agents from our Kansas City office participated in SSA’s Kansas City Region’s first “Fraud Awareness Day.”
  The theme was “Together We Can Protect Our Programs.” Our Kansas City Regional Anti-Fraud Committee
  members planned events to encourage participation from all SSA regional operational components to
  heighten awareness related to detecting, preventing, and reporting fraud, waste, and abuse.
  • OA staff has held leadership positions on the Federal Audit Executive Council’s Information Technology
  Subcommittee, as well as an appointment to the Information Security and Privacy Advisory Board. In both
  instances, OA provides input to key decision makers at OMB as well as the National Institute of Standards
  and Technology on matters related to information security, privacy, and IT audits.

Volunteer Efforts
  • A Special Agent from our Kansas City office is a volunteer board member at the Metro Lutheran Ministries,
  which serves needy families in the Kansas City metropolitan area. His duties include the distribution of food
  to the disadvantaged, serving breakfast to needy families and ministry members, and assisting in the care
  of the home and property of a World War II veteran.
  • A Special Agent from our Greensboro, North Carolina office was a presenter at the annual North Carolina
  Association on Aging conference. He served on a panel that educated the audience about many types of
  financial exploitation, ranging from consumer fraud to misuse of Social Security checks.
  • The Special Agent-in-Charge and Assistant Special Agent-in-Charge of our Philadelphia Field Division
  conducted a fraud presentation for the Pennsylvania State Eldercare Ombudsmen on Personal Care Home
  investigations.
  • As part of his volunteer efforts, an auditor from Headquarters has been involved with the Community Services
  Committee of the Association of Government Accounts and a local Community Civic Association. He has
  been involved in many community events, and he provided a Christmas party for children at the Institute for
  Children and Adolescents.
  • In May, an Audit Manager in Boston helped raise funds for the hungry during Project Bread’s annual Walk for
  Hunger. Project Bread is Massachusetts’ leading anti-hunger organization, dedicated to alleviating, preventing,
  and ultimately ending hunger in Massachusetts.
  • In April, an OTRM Human Resources Specialist participated in his second humanitarian mission to Guatemala
  City, Guatemala, sponsored by a local high school that partners with a church/school in Guatemala City,
  providing vocational training to disadvantaged Guatemalan children.


                                        A Special Thank You

             The diligent work, outstanding efforts, and many contributions
                 from our entire OIG staff make the accomplishments
              highlighted in this Semiannual Report to Congress possible.

     We would like to thank them for their dedicated spirit and many successes.

38                                                                        April 1, 2010 - September 30, 2010
                                             Semiannual Report to Congress




          Reporting Requirements
                                   and
                                Appendices




April 1, 2010 - September 30, 2010                                     39
Semiannual Report to Congress




         Reporting Requirements

         This report meets the requirements of the Inspector General Act of 1978, as amended,
         and includes information mandated by Congress.



               Section                               Requirement                            Page(s)

              Section 4(a)(2)       Review of legislation and regulations                       N/A


              Section 5(a)(1)       Significant problems, abuses, and deficiencies             8 - 38


              Section 5(a)(2)       Recommendations with respect to significant problems,     8 - 14,
                                    abuses, and deficiencies                                  23 - 25

              Section 5(a)(3)       Recommendations described in previous Semiannual          Appendix
                                    Reports on which corrective actions are incomplete         F&G

              Section 5(a)(4)       Matters referred to prospective authorities and the       15 - 21,
                                    prosecutions and convictions that have resulted           26 - 31

             Section 5(a)(5) &
                                    Summary of instances where information was refused          N/A
              Section 6(b)(2)


              Section 5(a)(6)       List of audits                                           Appendix B


                                                                                              8 - 14,
              Section 5(a)(7)       Summary of particularly significant reports
                                                                                              23 - 25

                                    Table showing the total number of audit reports and
              Section 5(a)(8)                                                                Appendix A
                                    total dollar value of questioned costs

                                    Table showing the total number of audit reports and
              Section 5(a)(9)                                                                Appendix A
                                    total dollar value of funds put to better use

                                    Audit recommendations more than 6 months old for
              Section 5(a)(10)                                                               Appendix A
                                    which no management decision has been made

                                    Significant management decisions that were revised
              Section 5(a)(11)                                                                  N/A
                                    during the reporting period

                                    Significant management decisions with which the
              Section 5(a)(12)                                                               Appendix D
                                    Inspector General disagrees

          Section 5(a)(14)(A and B)
                                    Results of Office of Inspector General peer reviews      Appendix H
                      (15)(16)




40                                                                                April 1, 2010 - September 30, 2010
                                                                            Semiannual Report to Congress




     Apendix A: Resolving Audit Requirements

     The following chart summarizes SSA’s responses to our recommendations for the recovery or
     redirection of questioned and unsupported costs. Questioned costs are those costs that are
     challenged because of a violation of law, regulation, etc. Unsupported costs are those costs that
     are questioned because they are not justified by adequate documentation. This information is
     provided in accordance with P.L. 96- 304 (the Supplemental Appropriations and Recession Act of
     1980) and the Inspector General Act of 1978, as amended.

                 Reports with Questioned Costs for the Reporting Period
                                 April 1, 2010 – September 30, 2010
                                                                    Value             Value
                                                      Number
                                                                  Questioned       Unsupported
       A.	For which no management decision
          had been made by the commencement             20       $1,378,981,558        $72,621,194
          of the reporting period.
       B.	Which were issued during the reporting
                                                       13 a         $61,041,639           $804,293
          period.


           	 Subtotal (A + B)                           33       $1,440,023,197        $73,425,487


       	 Less:


       C.	For which a management decision was
                                                        16       $1,304,417,088         $1,962,006
          made during the reporting period.


       	 i.	 Dollar value of disallowed costs.          14       $1,303,601,996         $1,962,006


       	 ii.	 Dollar value of costs not disallowed.     2               $815,092                 $0

       D.	For which no management decision
          had been made by the end of the               20         $135,606,109        $71,463,481
          reporting period.


     ­a. 	See Reports with Questioned Costs in Appendix B of this report.




April 1, 2010 - September 30, 2010                                                                       41
Semiannual Report to Congress




      The following chart summarizes SSA’s response to our recommendations that funds be put to
      better use through cost avoidances, budget savings, etc.


         Reports with Recommendations that Funds Be Put to Better Use
             Reporting Period April 1, 2010 – September 30, 2010

                                                                          Number              Dollar Value
        A. For which no management decision had been made
                                                                              11               $2,085,207,705a
           by the commencement of the reporting period.

        B. Which were issued during the reporting period.                     7b               $1,109,792,900


        		    Subtotal (A + B)                                                18               $3,195,000,605


             	 Less:

        C.	 For which a management decision was made during
            the reporting period.

          i. Dollar value of recommendations that were agreed
                                                                              13               $2,100,827,749
             to by management.

             (a) Based on proposed management action.                         13               $2,100,827,749


             (b) Based on proposed legislative action.                         0                             $0


          ii. Dollar value of costs not agreed to by management.               2               $1,039,920,926


        		    Subtotal (i + ii)                                               15               $3,140,748,675

        D.	 For which no management decision had been made
                                                                               4                  $54,251,930
            by the end of the reporting period.


         ­a. Dollar amount was updated due to duplicate entry during last reporting period.
         ­b. See Reports with Funds Put to Better Use in Appendix B of this report.




42                                                                                 April 1, 2010 - September 30, 2010
                                                                                 Semiannual Report to Congress




       Appendix B: Reports Issued

                           Reports with Non-Monetary Findings
                          October 1, 2009 – September 30, 2010
       Audit Number                                Report                                 Issue Date
                      Congressional Response Report: The Social Security
        A-01-09-29177 Administration’s Fugitive Felon Program and the Martinez             10/15/2009
                      Settlement Agreement
                      Office of Acquisition and Grants’ Staffing to Process
        A-15-10-11011 American Recovery and Reinvestment Act of 2009                       10/28/2009
                      Acquisitions
                         American Recovery and Reinvestment Act of 2009
        A-15-10-21045                                                                      10/30/2009
                         Data Quality Reviews
                      Fiscal Year 2009 Inspector General Statement on the
        A-02-09-19175 Social Security Administration’s Major Management and                 11/6/2009
                      Performance Challenges

        A-15-09-19124 Fiscal Year 2009 Financial Statement Audit                            11/9/2009

                      Fiscal Year 2009 Evaluation of the Social Security
        A-14-09-19047 Administration’s Compliance with the Federal Information             11/17/2009
                      Security Management Act

                         The Office of Operations’ Staffing Plans Under the
        A-09-09-29157                                                                      11/17/2009
                         American Recovery and Reinvestment Act of 2009

                         Impact of State Budget Issues on the Social Security
        A-01-10-11006                                                                      11/18/2009
                         Administration’s Disability Programs

        A-01-09-29056 Military Service Casualty Cases                                      12/17/2009

                         Disability Determination Services’ Staffing Under the
        A-07-09-29156                                                                      12/22/2009
                         American Recovery and Reinvestment Act

                         Congressional Response Report: San Francisco Regional
        A-05-09-29174                                                                      12/28/2009
                         Management Training Forum

                         The Office of Disability Adjudication and Review’s Staffing
        A-12-09-29140                                                                      12/31/2009
                         Plans Under the American Recovery and Reinvestment Act

                         The Social Security Administration’s Implementation of the
        A-03-09-29154                                                                        1/6/2010
                         E-Verify Program for New Hires

                         Congressional Response Report: Hearing Office
        A-07-10-21015                                                                       1/14/2010
                         Disposition Rates




April 1, 2010 - September 30, 2010                                                                         43
Semiannual Report to Congress




                       Reports with Non-Monetary Findings (Cont.)
                         October 1, 2009 - September 30, 2010
         Audit Number                                Report                               Issue Date

         A-12-08-28088 Hearing Office Performance and Staffing                             2/1/2010


                          Sunshine Payee Corporation, a Fee-For-Service
         A-08-09-29106                                                                     2/5/2010
                          Representative Payee for the Social Security Administration

                       Management Advisory Report: Single Audit of the
         A-77-10-00001 Commonwealth of Massachusetts for the Fiscal Year Ended            2/12/2010
                       June 30, 2008

                          Alabama Disability Determination Service’s Business Process
         A-08-09-29163                                                                    2/17/2010
                          for Adjudicating Disability Claims

                          Congressional Response Report: Hearing Office Backlogs
         A-12-10-21039                                                                     3/1/2010
                          in Missouri

                       The Social Security Administration’s Compliance with Social
         A-02-09-19006 Security Number Replacement Card Issuance Provisions of             3/4/2010
                       the Intelligence Reform and Terrorism Prevention Act of 2004

                          Peer Review of the Department of Energy’s Office of Inspector
         A-14-09-29169                                                                     3/5/2010
                          General

                          Management Advisory Report: Single Audit of the State of
         A-77-10-00004                                                                    3/12/2010
                          New York for the Fiscal Year Ended March 31, 2008


         A-08-10-11042 Prisoners’ Access to Social Security Numbers                       3/12/2010


                          The Social Security Administration’s Hiring and Training of
         A-13-09-19082                                                                    3/15/2010
                          Information Technology Specialists

                          Congressional Response Report: The Good Cause Provision
         A-01-10-21052                                                                    3/17/2010
                          Under the Fugitive Felon Program

                       The Social Security Administration’s Contract with Bankers
         A-15-09-19148 Business Management Services, Inc., Contract Number                3/18/2010
                       SS00-08-60085

                          Congressional Response Report: Representative Payees Who
         A-13-10-11013                                                                    3/19/2010
                          Employ Beneficiaries or Provide Employment Services


         A-04-10-21047 Field Office Post-Entitlement Workload Statistics                  3/25/2010

                          Management Advisory Report: Single Audit of the State of
         A-77-10-00006                                                                    3/25/2010
                          Maine for the Fiscal Year Ended June 30, 2008


44                                                                          April 1, 2010 - September 30, 2010
                                                                             Semiannual Report to Congress




                      Reports with Non-Monetary Findings (Cont.)
                        October
                      Reports with1,Non-Monetary
                                     2009 - September 30, 2010
                                                  Findings (Cont.)
         Audit Number October 1, 2009 –Report
                                        September 30, 2010                            Issue Date

                         The Social Security Administration’s Government Purchase
         A-13-09-29027                                                                 3/25/2010
                         Card Program

                         Management Advisory Report: Single Audit of the State of
         A-77-10-00005                                                                 3/26/2010
                         Illinois for the Fiscal Year Ended June 30, 2008

                         Controls Over Changes Made to Direct Deposit Routing
         A-02-08-28052                                                                 3/26/2010
                         Numbers

                         An Individual Representative Payee for the Social Security
         A-15-09-19150                                                                 3/31/2010
                         Administration in Los Angeles, California

                         The Social Security Administration's Use of Site Selection
         A-14-10-21043   Industry Best Practices for its New Data Center               4/12/2010
                         (Limited Distribution)
                         Congressional Response Report: The Social Security
         A-14-10-21095   Administration's Data Center Alternatives                     4/12/2010
                         (Limited Distribution)
                         Congressional Response Report: Reinstatement of
         A-01-10-20153   Reconsideration Step in the Michigan Disability               4/22/2010
                         Determination Services

         A-12-10-20154   Congressional Response Report: Scheduled Hearings             4/22/2010


                         Old-Age, Survivors and Disability Insurance Benefit
         A-06-09-29090                                                                  5/6/2010
                         Payments Sent to Non-Bank Financial Service Providers

                         Congressional Response Report: The Social Security
         A-06-10-11028                                                                  5/7/2010
                         Employees' Activities Association, Inc.

                         Conversion of the Social Security Administration's Legacy
         A-14-09-19097                                                                 5/13/2010
                         File Management System

                         Management Advisory Report: Single Audit of the State of
         A-77-10-00007                                                                 5/14/2010
                         Arizona for the Fiscal Year Ended June 30, 2008

                         Management Advisory Report: Single Audit of the State of
         A-77-10-00008                                                                 5/18/2010
                         Colorado for the Fiscal Year Ended June 30, 2008

                         Management Advisory Report: Single Audit of the State of
         A-77-10-00009                                                                 5/18/2010
                         Connecticut for the Fiscal Year Ended June 30, 2008




April 1, 2010 - September 30, 2010                                                                     45
Semiannual Report to Congress




                    Reports with Non-Monetary Findings (Cont.)
                      October
                    Reports with1,Non-Monetary
                                   2009 - September 30, 2010
                                                Findings (Cont.)
        Audit Number October 1, 2009 –Report
                                       September 30, 2010                              Issue Date

                        Management Advisory Report: Single Audit of the
        A-77-10-00010                                                                  5/18/2010
                        State of Delaware for the Fiscal Year Ended June 30, 2008


        A-05-10-21035   Congressional Response Report: Off-site Training Conferences   5/26/2010


        A-13-08-28099   Mission-Critical Occupation Core Competencies                  5/26/2010


        A-15-10-20134   Trust Fund Projections                                         5/26/2010


                        Congressional Response Report: Disability Determination
        A-01-10-11007                                                                  5/28/2010
                        Services Medical Consultant Assessments

                        Congressional Response Report: Martinez Settlement
        A-01-10-20112   Benefits Withheld Under the No Social Security Benefits        5/28/2010
                        for Prisoners Act of 2009

                        Congressional Response Report: The Social Security
        A-13-10-20125                                                                  5/28/2010
                        Administration’s Oversight of Employer Representative Payees

                        Controls over the Flexiplace Program and Personally
        A-08-09-19079                                                                   6/9/2010
                        Identifiable Information at Hearing Offices

                        2010 Cost-of-Living Adjustment Notices with Incorrect
        A-02-10-20107                                                                  6/17/2010
                        Payment Dates


        A-13-09-19145   Representative Payees Reporting Criminal Convictions           6/17/2010


                        Management Advisory Report: Single Audit of the State of
        A-77-10-00012                                                                  6/17/2010
                        Ohio for the Fiscal Year Ended June 30, 2008

                        The Social Security Administration's Post-Implementation
        A-14-10-30105                                                                  6/22/2010
                        Review Process

                        Administrative Costs Claimed by the Florida Division of
        A-15-10-11051                                                                  6/28/2010
                        Disability Determinations




46                                                                     April 1, 2010 - September 30, 2010
                                                                            Semiannual Report to Congress




                      Reports with Non-Monetary Findings (Cont.)
                        October
                      Reports with1,Non-Monetary
                                     2009 - September 30, 2010
                                                  Findings (Cont.)
         Audit Number October 1, 2009 –Report
                                        September 30, 2010                              Issue Date

                         Congressional Response Report: The Social Security
         A-01-09-19028                                                                  7/14/2010
                         Administration's Disability Programs and Changes in Society

                         Congressional Response Report: Office of Disability
         A-07-10-21049                                                                  7/14/2010
                         Adjudication and Review Hearing Request Dismissals

                         Congressional Response Report: The Office of Disability
         A-12-10-20114                                                                  7/14/2010
                         Adjudication and Review's 2013 Pending Hearings Backlog Plan

                         Kindergarten Through 12th Grade Schools' Collection and
         A-08-10-11057                                                                  7/22/2010
                         Use of Social Security Numbers

                         The Social Security Administration's Second Support Center
         A-14-10-30110                                                                  7/22/2010
                         Disaster Recovery Capability (Limited Distribution)


         A-06-09-29133   Administrative Leave Use                                       7/23/2010


                         Contractors' Reporting of Jobs Created Using American
         A-15-10-21096                                                                  7/28/2010
                         Recovery and Reinvestment Act Dollars


         A-01-10-21080   Compassionate Allowance Initiative                              8/6/2010


         A-15-10-11072   Performance Indicator Audit: Environmental Management System   8/11/2010


                         The Social Security Administration's Disaster Preparedness
         A-14-10-20116                                                                  8/13/2010
                         (Limited Distribution)

                         Social Security Administration Computer Equipment
         A-04-10-21029   Purchased with American Recovery and Reinvestment Act          8/20/2010
                         of 2009 Funds
                         Disability Impairments on Cases Most Frequently Denied by
         A-07-09-19083   Disability Determination Services and Subsequently Allowed     8/20/2010
                         by Administrative Law Judges
                         The Social Security Administration’s Response to
         A-14-10-20170   Congressional Inquiry Concerning New Data Center Site          8/27/2010
                         Selection (Limited Distribution)




April 1, 2010 - September 30, 2010                                                                    47
Semiannual Report to Congress




                    Reports with Non-Monetary Findings (Cont.)
                      October
                    Reports with1,Non-Monetary
                                   2009 - September 30, 2010
                                                Findings (Cont.)
         Audit Number October 1, 2009 –Report
                                        September 30, 2010                             Issue Date

                        The Social Security Administration's Hiring Under the
        A-12-10-11050                                                                   8/30/2010
                        American Recovery and Reinvestment Act of 2009

                        The Social Security Administration's Use of Limitation
        A-15-10-21085                                                                    9/1/2010
                        on Administrative Expenses Funds


        A-04-10-11012   Contract Audit of Hewlett Packard                               9/15/2010


                        Delivery Order with Softmart Government Services, Inc.,
        A-06-10-11019                                                                   9/17/2010
                        for Microsoft Licensing and Maintenance

                        Congressional Response Report: Political Appointees’
        A-15-10-20185   Role in the Social Security Administration’s Freedom of         9/17/2010
                        Information Act Requests
                        The Social Security Administration's Risk of Making
        A-08-10-20131   Payments to Persons Who Commit, Threaten to Commit,             9/27/2010
                        or Support Terrorism
                        Congressional Response Report: The Social Security
        A-01-11-21043   Administration’s Process for Identifying and Preventing         9/28/2010
                        Improper Payments to Individuals Who Return to Work

                        Administrative Costs Claimed by the Kansas Disability
        A-07-09-19093                                                                   9/28/2010
                        Determination Services


        A-02-09-29123   Controls over Single Payment System Payments                    9/30/2010

                        Congressional Response Report: The Social Security
        A-03-10-21060   Administration’s Cost Estimates for the Consent Based           9/30/2010
                        Social Security Number Verification program

                        Congressional Response Report: Training Expenditures at the
        A-05-10-10118                                                                   9/30/2010
                        Social Security Administration

                        The Social Security Administration’s Plan to Reduce Improper
        A-15-10-20163                                                                   9/30/2010
                        Payments Under Executive Order 13520




48                                                                         April 1, 2010 - September 30, 2010
                                                                              Semiannual Report to Congress




                             Reports with Questioned Costs
                          October 1, 2009 – September 30, 2010
         Audit
                     Issue Date                          Report                         Dollar Amount
        Number

                                     Supplemental Security Income Payments to
     A-01-09-29113 12/28/2009                                                                  $20,236
                                     Parents or Relatives Not Supporting Children

                                     Contract with Mathematica Policy Research,
     A-06-09-19061 12/29/2009        Inc., for Services to Evaluate Youth Transition           $34,203
                                     Demonstration Projects

                                     Supplemental Security Income Recipients
     A-01-09-19031     1/6/2010                                                          $1,282,736,960
                                     Eligible for Veterans Benefits


                                     The Accuracy of the Garnishment of Title II
     A-15-09-19063    1/15/2010      Benefits by the Social Security Administration’s           $5,168
                                     Court Ordered Garnishment System

                                     Management Advisory Report: Single Audit
     A-77-10-00002    2/12/2010      of the State of Texas for the Fiscal Year Ended           $14,840
                                     August 31, 2008

                                     Management Advisory Report: Single Audit
     A-77-10-00003     3/8/2010      of the Commonwealth of Pennsylvania for the               $16,025
                                     Fiscal Year Ended June 30, 2008


                                     Administrative Costs Claimed by the
     A-09-09-19020     3/8/2010                                                               $728,123
                                     Arizona Disability Determination Services

                                     Follow-up: The Social Security
     A-04-09-19138    3/24/2010      Administration’s Controls over the                    $70,789,932
                                     Write-Off of Title XVI Overpayments


     A-05-08-48109    6/17/2010      Organizational Representative Payee in Ohio              $132,600


                                     Benefit Payments Managed by Representative
     A-13-07-17137    6/17/2010                                                                $42,000
                                     Payees of Children in Foster Care




April 1, 2010 - September 30, 2010                                                                        49
Semiannual Report to Congress




                        Reports with Questioned Costs (Cont.)
                        October 1, 2009 – September 30, 2010
      Audit Number Issue Date                      Report                     Dollar Amount
                                Management Advisory Report: Single Audit
                                of the Michigan Department of Human
      A-77-10-00011 6/17/2010                                                       $593,347
                                Services for the 2-Year Period Ending
                                September 30, 2008

                                Manual Computations of
      A-07-09-19060 6/25/2010                                                    $16,031,299
                                Supplemental Security Income Payments

                                Follow-up: The Social Security
                                Administration's Controls over the
      A-13-09-19040 7/1/2010                                                         $78,346
                                Old-Age, Survivors and Disability Insurance
                                Overpayment Waiver Approval Process

                                Homeless Outreach Projects and
      A-03-09-19073 7/2/2010                                                        $215,196
                                Evaluation Demonstration Project


                                Retroactive Title II Payments to
      A-06-08-38081 7/14/10                                                      $10,309,221
                                Released Prisoners

                                Disability Insurance and Supplemental
      A-01-10-11009 7/16/2010   Security Income Claims Approved                     $937,016
                                in 2006 But Not Paid
                                CESSI, Division of Axiom Resource
                                Management, Inc., Indirect Cost Rate
      A-15-10-21088 7/16/2010                                                          $6,100
                                Proposals for Fiscal Years 2007 and 2008
                                (Limited Distribution)

                                Benefits Payable to Child Beneficiaries
      A-09-09-29116 8/20/2010                                                    $31,166,262
                                Who No Longer Need Representative Payees


                                Supplemental Security Income
      A-01-09-19037 8/30/2010                                                       $218,536
                                Overpayment Notices Not Sent

                                Safe Haven, A Fee-for-Service
      A-07-10-21062 9/21/2010   Representative Payee for the                         $64,259
                                Social Security Administration

                                Economic Recovery Payments for Social
      A-09-10-11017 9/24/2010   Security and Supplemental Security Income         $2,051,750
                                Beneficiaries

                                                 TOTAL
                                                                              $1,416,191,419




50                                                                 April 1, 2010 - September 30, 2010
                                                                            Semiannual Report to Congress




                         Reports with Funds Put to Better Use
                         October 1, 2009 – September 30, 2010

     Audit Number Issue Date                          Report                        Dollar Amount

                                     Supplemental Security Income Payments to
      A-01-09-29113    12/28/2009                                                      $10,234,689
                                     Parents or Relatives Not Supporting Children

                                     Contract with Mathematica Policy Research,
      A-06-09-19061    12/29/2009    Inc., for Services to Evaluate Youth              $29,700,946
                                     Transition Demonstration Projects

                                     Supplemental Security Income Recipients
      A-01-09-19031      1/6/2010                                                     $125,579,060
                                     Eligible for Veterans Benefits


                                     Administrative Costs Claimed by the
      A-09-09-19020      3/8/2010                                                       $2,182,741
                                     Arizona Disability Determination Services


                                     Individuals Receiving Social Security Cards
      A-09-09-29004     3/26/2010                                                      $22,671,168
                                     After Benefits Have Been Suspended


      A-07-09-29147     3/30/2010    Full Medical Continuing Disability Reviews      $1,866,554,418


                                     Aged Beneficiaries in Need
     A-09-09-29002       4/5/2010                                                    $1,039,586,516
                                     of Representative Payees


     A-01-09-19034      5/18/2010    Plan to Achieve Self-Support Program              $17,272,273


                                     Manual Computations of
     A-07-09-19060      6/25/2010                                                       $8,015,650
                                     Supplemental Security Income Payments


                                     Homeless Outreach Projects and
     A-03-09-19073       7/2/2010                                                          $96,171
                                     Evaluation Demonstration Project




April 1, 2010 - September 30, 2010                                                                    51
Semiannual Report to Congress




                      Reports with Funds Put to Better Use (Cont.)
                        October 1, 2009 – September 30, 2010

     Audit Number Issue Date                       Report                       Dollar Amount


      A-08-09-19167   7/12/2010   Follow-up of Pending Workers' Compensation       $44,000,910


                                  Disability Insurance and Supplemental
      A-01-10-11009   7/16/2010   Security Income Claims Approved in 2006             $255,168
                                  But Not Paid

                                  The Social Security Administration’s Use of
                                  American Recovery and Reinvestment Act
      A-06-10-10124   9/30/2010                                                       $566,212
                                  of 2009 Funds to Administer Economic
                                  Recovery Payments


                                   TOTAL                                        $3,166,715,922




52                                                                   April 1, 2010 - September 30, 2010
                                                                               Semiannual Report to Congress




Appendix C: Reporting Requirements Under the Omnibus
Consolidated Appropriations Act of FY 1997

To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208, we are
providing requisite data for the first half of FY 2010 from the Offices of Investigations and Audit in this report.
Office of Investigations
We are reporting over $35 million in SSA funds as a result of our investigative activities in this reporting period
(4/1/10 – 9/30/10). These funds are broken down in the table below.

                                         Investigative Activities

                   1st Quarter           2nd Quarter         3rd Quarter        4th Quarter
                                                                                                      Total
                10/1/09 – 12/31/09     1/1/10 – 3/31/10    4/1/10 – 6/30/10   7/1/10 – 9/30/10

    Court
   Ordered          $6,413,176           $6,516,300          $6,258,597         $7,024,262        $26,212,335
  Restitution

  Recoveries        $5,955,030           $9,637,270         $12,064,919         $8,773,874        $36,431,093


     Fines           $344,324             $545,209            $502,721           $309,832          $1,702,086


 Settlements/
                     $333,650             $162,116            $119,023           $279,882           $894,671
  Judgments


   TOTAL           $13,046,180          $16,860,895         $18,945,260       $16,387,850         $65,240,185




April 1, 2010 - September 30, 2010                                                                              53
Semiannual Report to Congress




     Office of Audit
     SSA management has informed us that it has completed implementing recommendations from
     14 audit reports during this time period valued at over $467 million.
     The Social Security Administration’s Use of American Recovery
     and Reinvestment Act of 2009 Funds to Administer Economic
     Recovery Payments (A-13-08-28103, 9/30/2009)
     We recommended that SSA take corrective action to reclassify training and systems staff time
     expenditures. The implemented value of this recommendation is $566,212.
     Spouses’ to Widow(er)s’ Benefits When Government Pensions
     are Involved (A-13-08-28103, 9/30/2009)
     We recommended that SSA determine whether it would be cost effective to conduct a clean-up
     project to identify current widow(er)s whose government pension information was not verified as
     required by policy, take appropriate action to verify the information, and adjust the OASDI payment
     amounts as needed. The implemented value of this recommendation is $147,784,380.
     Individuals Receiving Multiple Old-Age, Survivors and Disability
     Insurance Benefits (A-01-08-28048, 9/17/2009)
     We recommended that SSA review the cases in our population most likely to have overpayments
     to determine whether the proper benefit amounts are being paid. The implemented value of this
     recommendation is $573,732.
     SALINA EMERGENCY-AID FOOD BANK (SFB), A FEE-FOR-SERVICE
     REPRESENTATIVE PAYEE FOR THE SOCIAL SECURITY ADMINISTRATION
     (A-07-09-19065, 7/29/2009)
     We recommended that SSA instruct SFB to return conserved funds according to SSA instructions.
     The implemented value of this recommendation is $1,143.
     BENEFIT PAYMENTS MAILED TO POST OFFICE BOXES (A-06-08-18097, 7/2/2009)
     We recommended that SSA correct 47 instances we identified where incorrect OASDI unearned income
     amounts were reflected on beneficiaries’ SSI records. The implemented value of this recommendation
     is $30,958.
     Benefits Paid to Title II Beneficiaries with a Child-in-Care
     (A-01-09-29070, 6/26/2009)
     We recommended that SSA review the remaining cases in the two populations in which it appears
     the Title II beneficiaries do not have an eligible child in their care. The implemented value of this
     recommendation is $2,271,516.
     Fugitive Felons Serving as Representative Payees
     (A-01-08-18021, 3/31/2009)
     We recommended that SSA conduct a match between its Fugitive Felon SSA Control File and
     Representative Payee System to identify all representative payees with unsatisfied felony warrants
     (including those representative payees who were selected prior to November 2005) and determine
     whether more suitable representative payees are needed. The implemented value of this
     recommendation is $75,841,193.

54                                                                       April 1, 2010 - September 30, 2010
                                                                           Semiannual Report to Congress




     CONTRACT FOR THE BENEFIT OFFSET NATIONAL DEMONSTRATION PROJECT
     WITH ABT ASSOCIATES, INC. (A-05-08-18041, 3/12/2009)
     We recommended that SSA improve oversight of the BOND contract and similar contracts. The
     implemented value of this recommendation is $5,300,000.
     INDIRECT COSTS CLAIMED BY THE TEXAS DISABILITY DETERMINATION
     SERVICES (TX-DDS) (A-06-08-18092, 1/26/2009)
     We recommend SSA ensure TX-DDS bears no more than its fair share of indirect costs by working
     with the State parent Agency and the Department of Education to develop and implement a
     methodology that allocates indirect costs in accordance with the relative benefits received by TX-
     DDS. The implemented value of this recommendation is $9,790,704.
     CONTRACT WITH LOCKHEED MARTIN GOVERNMENT SERVICES, INC.,
     FOR DIGITAL IMAGING SERVICES (A-04-08-18066, 11/20/2008)
     We recommended that SSA determine whether the requirement to forward all paper documents
     with a missing or damaged barcode to the responsible SSA component should be eliminated. We
     also recommended that SSA ensure State DDSs and SSA components review the appropriateness
     of the forwarding instructions in their SSA generated barcode. The implemented values of these
     recommendations are $1,615,464.
     MEDICAL CONSULTANT CONTRACTS (A-02-07-17050, 9/30/2008)
     We recommended that SSA ensure the records used to support payments to Medical Contracts
     are complete, accurate, and verified before making payments. The implemented value of this
     recommendation is $1,212.
     The Social Security Administration’s Income and Resource
     Verification Process for Individuals Applying for Help with
     Medicare Prescription Drug Plan Costs (A-06-06-16135, 2/19/2008)
     We recommended that SSA ensure its redetermination process identifies and terminates improperly
     awarded subsidies currently in effect. The implemented value of this recommendation is
     $223,594,840.
     THE SOCIAL SECURITY ADMINISTRATION’S ABILITY TO REACH INDIVIDUALS
     USING THE SOCIAL SECURITY STATEMENT (A-15-07-17095, 1/11/2008)
     We recommended that SSA review alternative methods for delivering statements to individuals in
     foreign countries and select a process, which allows these statements to be delivered successfully.
     SSA should determine whether the statements should continue to be mailed to foreign countries
     until a more reliable method of delivery is found. The implemented value of this recommendation
     is $411,000.




April 1, 2010 - September 30, 2010                                                                         55
Semiannual Report to Congress




     Appendix D: Significant Management Decisions With Which
     the Inspector General Disagrees

     AGED BENEFICIARIES IN NEED OF REPRESENTATIVE PAYEES
     (A-09-09-29002, 4/5/2010)
     Results of Review: We estimate that approximately 1 million aged beneficiaries who received about
     $1 billion in monthly benefits may have been incapable of managing or directing the management
     of their benefits. This occurred, in part, because SSA did not identify aged beneficiaries who became
     incapable after their initial entitlement to benefits. In addition, individuals or organizations who
     managed the benefits were not always aware of SSA’s Representative Payment Program. In addition,
     we found that 34 beneficiaries, receiving $40,162 in monthly benefits, refused to participate in
     our review and may have been at-risk. With the retirement of the “baby boom” generation and
     longer life expectancies, the population of aged beneficiaries is projected to increase significantly.
     Therefore, the number of beneficiaries who are incapable of managing their benefits and in need
     of representative payees will increase in the coming years.
     Recommendation: Establish additional controls to better identify aged beneficiaries in need of
     representative payees.
     Agency Response: SSA disagreed with the recommendation. This would require a significant
     increase in the number of capability investigations undertaken in the field, and the agency cannot
     justify this investment of resources. All legally competent beneficiaries are presumed capable,
     unless there is evidence to the contrary. Under the Act, SSA is the sole arbiter of their capability
     for managing benefits. When capability is in doubt, the agency reviews legal, medical, and lay
     evidence to make a determination. Beneficiaries who might otherwise be found incapable may
     be found capable if they have the support of friends, relatives, or community organizations. SSA
     is concerned that the findings in the report may reflect a different standard than the agency uses
     in capability determinations. Specifically, it may have mischaracterized some of the relationships
     discovered between beneficiaries and concerned third parties as “de facto” payees. SSA does not
     make capability determinations based on age or type of illness. Targeting aged beneficiaries for
     capability reviews could be perceived as discriminatory and interfering with their rights
     OIG Response: Although SSA disagreed with Recommendation 4, it plans to contact all
     beneficiaries aged 103 and older beginning in May 2010. During this review, SSA employees will
     conduct face-to-face interviews with approximately 14,000 beneficiaries. As such, SSA will identify
     beneficiaries who need representative payees. Additionally, our recommendation was not designed
     to target aged beneficiaries over age 85 but to ensure payments to these beneficiaries—who will
     increase to about 21 million by 2050—are used for their intended purpose.




56                                                                        April 1, 2010 - September 30, 2010
                                                                                    Semiannual Report to Congress




        Appendix E: Collections from Investigations and Audits

        The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
        additional information concerning actual cumulative collections and offsets achieved as a
        result of OIG activities each semiannual period.


        Office of Investigations

                Total Restitution Reported by DOJ as Collected for SSA

                                      Total Number
                                      of Individuals            Court Ordered            Total Restitution
                   FY                   Assigned                  Restitution               Collected
                                      Court Ordered             for This Period              by DOJ
                                       Restitution
                  2008                        765                  $22,975,145              See Footnote1

                  2009                        603                  $24,126,913              See Footnote1

                  2010                        447                  $20,670,938              See Footnote1

                 TOTAL                      1,815                  $67,772,996             See Footnote1
        1
         DOJ migrated collection data to a new computer system and is working to generate reports that will
        provide us with this information.



                         Recovery Actions Based on OI Investigations

                                         Total Number of
                   FY                                                           Amount for Recovery
                                     Recovery Actions Initiated

                  2008                              1,862                             $40,040,214

                  2009                               954                              $23,376,566

                  2010                              1,128                             $36,431,093

                TOTAL                               3,944                             $99,847,873




April 1, 2010 - September 30, 2010                                                                            57
Semiannual Report to Congress




Office of Audit
The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection of
questioned and unsupported costs. This information is prepared in coordination with SSA’s management officials
and was current as of September 30, 2010.


                                SSA’s Responses to OIG’s Recommendations
                       Recovery or Redirection of Questioned and Unsupported Costs1

            Reports with
                           Questioned/               Management         Amount Collected       Amount Written-Off/
   FY       Questioned                                                                                                        Balance2
                         Unsupported Costs           Concurrence        or to be Recovered        Adjustments
               Costs

 2008            28          $2,409,411,231          $485,835,413           $221,846,387           $1,956,683,032            $230,881,812


 2009            28          $3,124,063,484       $1,663,609,275         $1,410,335,450            $1,450,826,149            $262,901,885


 2010            21          $1,416,191,419       $1,303,300,626                  $39,371                 $563,812      $1,415,588,236


TOTAL            77         $6,949,666,134 $3,452,745,314               $1,632,221,2081           $3,408,072,993        $1,909,371,933


  1
      The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by the OIG.
  2
      Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/Adjustments




58                                                                                           April 1, 2010 - September 30, 2010
                                                                          Semiannual Report to Congress




   Appendix F: Significant Monetary Recommendations From Prior
   FYs for Which Corrective Actions Have Not Been Completed
   SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS TO CONCURRENT
   BENEFICIARIES RESULTING FROM INCORRECT BENEFIT CALCULATIONS
   (A-06-09-29103, 9/24/2009)
   Results of Review: In March 2009, we identified 338 concurrent beneficiaries from one of 20
   payment record segments, who received excessive SSI payments because SSA erroneously offset their
   SSI payment using OASDI benefit amounts that were not adjusted to reflect recent benefit payment
   increases. SSA overpaid these beneficiaries $18,604 per month in Federal SSI payments and another
   $2,557 per month in State supplemental benefits as a result of these errors. Most of these errors
   involved instances where SSA was collecting OASDI overpayments from the beneficiaries. A specific
   systems input associated with these payments unintentionally froze the OASDI benefit amounts used
   in the SSI unearned income offset computations. Based on our audit results, we estimate SSA issued
   overpayments to approximately 6,800 concurrently entitled beneficiaries because SSA erroneously
   offset their SSI payments using OASDI benefit amounts that were not adjusted to reflect recent benefit
   payment increases. If these errors are not corrected, we estimate that SSA will issue approximately
   $5.1 million in excessive SSI payments to these beneficiaries over the next 12 months.
   Recommendation: SSA should review the 7,214 cases provided and take appropriate action to
   correct the errors and prevent future errors.
   Valued at: $5,078,640 in funds put to better use.
   Agency Response: SSA agreed with the recommendation.
   Corrective Action: By the end of March 2011, SSA will complete the review of the cases and take
   action to correct the errors and to prevent future overpayments.




April 1, 2010 - September 30, 2010                                                                          59
Semiannual Report to Congress




     FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS
     OVER SUSPENDING COLLECTION EFFORTS ON TITLE XVI OVERPAYMENTS
     (A-04-09-19039, 9/2/2009)
     Results of Review: We found that SSA took action on three of the recommendations in our prior report.
     However, funding limitations delayed development of an automated system that would address the two
     remaining recommendations. SSA’s corrective actions resulted in some improvements in the error rates
     we previously reported. However, we still found similar conditions identified in the prior report.
     We also found that SSA did not always (1) document the justification for the decisions to suspend
     overpayment collection efforts and (2) obtain the required management approval before suspending
     an overpayment. On occasion, SSA personnel suspended collection efforts when debtors or the
     debtors’ representative payees had reported earnings that may have enabled some repayment. Also,
     SSA personnel suspended collections of some debts and classified the debtors as unable to locate or
     out of the country even though we did not find evidence that SSA attempted to contact the debtors or
     the debtors’ representative payees through their current employer. Overall, we estimated for 6,500
     cases, totaling $52.2 million, SSA personnel did not follow policies and procedures when it suspended
     overpayment collection efforts.
     Recommendation: SSA should continue to urge staff compliance with existing policy when suspending
     Title XVI overpayments and hold accountable those employees who do not follow established criteria.
     Valued at: $29,642,820 in funds put to better use.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA recently released reminders to the field offices of the policy they should
     follow when making overpayment suspension decisions. The agency is still developing overpayment
     training and will explore ways to hold employees accountable for not following proper overpayment
     suspension procedures.
     Recommendation: SSA should consider revising the May 2009 policy to require the 2-PIN process
     (management approval) for suspension decisions controlled by the Recovery and Collection of
     Overpayment Process.
     Valued at: $22,639,420 in funds put to better use.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA will investigate the feasibility of requiring a 2-PIN process for suspension
     decisions controlled by Recovery and Collection of Overpayments System.




60                                                                       April 1, 2010 - September 30, 2010
                                                                          Semiannual Report to Congress




   FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S PRISONER INCENTIVE
   PAYMENT PROGRAM (A-01-09-19029, 8/20/2009)
   Results of Review: Our audit found that SSA’s procedures do not ensure that incentive payments
   to institutions that provide inmate information are being made in accordance with the provisions in
   the Act. Based on our review of 275 sample cases, we estimate about 119,862 incentive payments
   were issued incorrectly, resulting in approximately $30.3 million in OASDI and SSI program funds
   that should not have been paid.
   SSA informed us that, in June 2004, it developed a technical amendment that, if enacted, would amend
   the Act to align with how SSA programmed its systems to pay prisoner incentive payments. However,
   the Agency never submitted the proposal to Congress. However, this legislation has not been changed.
   Recommendation: SSA should implement a system to pay incentive payments according to the Act
   to facilitate reporting inmate information.
   Valued at: $30,281,018 in questioned costs.
   Agency Response: SSA agreed with the recommendation.
   Corrective Action: The agency agreed there is a discrepancy between the incentive payment
   provisions in the statute and the procedures SSA follows to issue incentive payments.
   In June 2004, SSA developed a technical amendment to bring the language in the Act in line with its
   incentive payment policy. However, this legislation has not yet been changed.
   SUPPLEMENTAL SECURITY INCOME REDETERMINATIONS (A-07-09-29146, 7/14/2009)
   Results of Review: Our audit found that the number of SSI redeterminations conducted by SSA
   has substantially decreased although the number of SSI recipients has increased. In fact, between FYs
   2003 and 2008, redeterminations decreased by more than 60 percent. According to SSA, it was not
   able to conduct as many redeterminations as needed because of budget limitations and increases in
   SSA’s core workloads. We estimate SSA could have saved an additional $3.3 billion during FYs 2008
   and 2009 by conducting redeterminations at the same level it did in FY 2003.
   Recommendation: SSA should establish a methodology to identify the number of redeterminations
   that are needed each year. To the extent the annual number of necessary redeterminations is not
   completed, identify the lost savings and document the reasons the number of needed redeterminations
   was not completed.
   Valued at: $3,255,531,018 in funds put to better use.
   Agency Response: SSA agreed with the recommendation.
   Corrective Action: The agency will begin developing such a methodology and, when necessary,
   report on lost savings




April 1, 2010 - September 30, 2010                                                                         61
Semiannual Report to Congress




     PAYMENTS TO INDIVIDUALS WHOSE NUMIDENT RECORD CONTAINS A DEATH
     ENTRY (A-06-08-18095, 6/26/2009)
     Results of Review: Based on our results, we estimate that SSA made approximately $40.3 million
     in improper payments to deceased beneficiaries after recording their date of death in SSA’s records.
     Further, we estimate SSA would make approximately $6.9 million in additional improper payments
     over the next 12 months if these discrepancies were not corrected.
     Recommendation: SSA should terminate benefits, recover improper payments, and refer potential
     instances of fraud to OI for all beneficiaries determined to be deceased during living status verifications.
     Valued at: $40,258,680 in questioned costs and $6,936,540 in funds put to better use.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA has completed over 98 percent of the case analysis and expected to complete
     the balance of 164 cases by late October. There is a possibility that a few of these remaining cases
     may require additional development.
     IMPROPER PAYMENTS RESULTING FROM THE ANNUAL EARNINGS TEST (AET)
     (A-09-07-17066, 8/31/2007)
     Results of Review: Our audit disclosed that SSA did not adjust the benefit payments for all
     beneficiaries who were subject to AET. Based on a random sample of 250 beneficiaries for CYs 2002
     through 2004, we found SSA overpaid $393,117 to 112 beneficiaries and underpaid $44,264 to
     16 beneficiaries. As a result, we estimate SSA overpaid about $313 million to 89,300 beneficiaries
     and underpaid about $35 million to 12,800 beneficiaries. These payment errors primarily occurred
     because SSA did not process all records identified by its Earnings Enforcement Operation.
     Recommendation: SSA should review and process, as appropriate, all Earnings Enforcement
     Operation selections pending in the Office of Quality Performance since 1996.
     Valued at: $348,680,140 in questioned costs.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA processed all selections from 2004 and is committed to addressing all
     selections from 2005 in a timely manner. All selections made prior to 2004 require manual review
     and processing by Operations staff. SSA thoroughly analyzed and evaluated the issues involved
     and determined that there is no possibility that these selections can be addressed via an automated
     solution. Additionally, Operations has indicated that current resources could not be redirected from
     ongoing claims processing workloads to process these selections.




62                                                                           April 1, 2010 - September 30, 2010
                                                                         Semiannual Report to Congress




   FOLLOW-UP ON DISABLED TITLE II BENEFICIARIES WITH EARNINGS REPORTED
   ON THE MASTER EARNINGS FILE (A-01-08-28075, 4/15/2009)
   Results of Review: Our audit found that the Agency made efforts to reduce overpayments resulting
   from work activity. However, we found that SSA did not evaluate all earnings, and as a result,
   overpayments resulted from work activity.
   Based on our review, we estimate that approximately $3.1 billion was overpaid to about 173,000
   disabled beneficiaries because of work activity. Although SSA identified about 58 percent of these
   overpayments, we estimate the remaining 42 percent—approximately $1.3 billion—went undetected
   by the Agency to about 49,000 disabled beneficiaries. In addition, we estimate SSA will continue to
   incorrectly pay about $382 million over the next 12 months to individuals who are no longer entitled
   to disability benefits if action is not taken by the Agency.
   SSA performed 170,664 work-related CDRs in 2008 at a unit cost of $397.45. Based on our review,
   we estimate about $3.1 billion was overpaid to approximately 173,000 disabled beneficiaries (out
   of 518,080 in the estimated universe) because of work activity. To perform work-related CDRs for all
   518,080 disabled beneficiaries, it would cost SSA about $206 million (assuming the $397.45 unit
   cost remains the same). This results in a potential benefit-cost ratio of $15 to $1.
   We recognize SSA’s efforts to improve the work-related CDR process. In addition, we acknowledge the
   Agency’s limited resources with which to perform this workload. However, we believe SSA may achieve
   greater savings in the long-term if the Agency could provide the resources to perform work-related
   CDRs for all disabled beneficiaries with substantial earnings reported on the Master Earnings File.
   Recommendation: SSA should develop and implement a plan to allocate more resources to timely
   perform work-related CDRs—and assess overpayments resulting from work activity—for cases identified
   by the agency’s earnings enforcement process.
   Valued at: $1,335,815,580 in questioned costs and $381,563,100 in funds put to better use.
   Agency Response: SSA agreed with the recommendation.
   Corrective Action: SSA convened a workgroup in January 2010. Improvements were made as follows:
   Management Information (MI)
   • Thousands of extraneous items were deleted from the work CDR MI data source
   • Establishing an agency report to track work CDRs—currently being validated
   Strike Plan
   • Strike teams were formed to streamline work CDR processing and reduce the pending aged cases
   • Quarterly reports are made to track progress
   Overpayments
   • An overpayment report was developed and is now being validated
   • Enforcement cases are now prioritized and processed by highest earnings




April 1, 2010 - September 30, 2010                                                                        63
Semiannual Report to Congress




     CONTROLS OVER MISCELLANEOUS PAYMENTS MADE THROUGH THE SINGLE
     PAYMENT SYSTEM (A-09-07-17119, 10/25/2007)
     Results of Review: Our audit disclosed that SSA’s controls to prevent or detect improper or duplicate
     miscellaneous payments were generally effective. However, SSA needed to improve its controls over
     the retention of supporting documentation for miscellaneous Single Payment System (SPS) payments
     and the recording of SSNs for SPS payments issued to non-beneficiaries. Based on our review of a
     random sample of 275 death underpayments from the population of 327,580 non-beneficiaries, we
     found that SSA:
     • Improperly paid an estimated $7.3 million to 11,912 non-beneficiaries;
     • Did not retain adequate supporting documentation for an estimated $98 million in payments made
     to 50,030 non-beneficiaries;
     • Did not obtain or record the SSNs for 176,029 (53 percent) of the 332,680 death underpayments
     issued to non-beneficiaries; and
     • Paid improper duplicate payments of $27,480 to three individuals.
     Recommendation: SSA should establish an appropriate control to ensure the SSA-1724 or other
     written application for a death underpayment is retained.
     Valued at: $98,280,016 in questioned costs.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA responded that they are determining which controls would be feasible.




64                                                                       April 1, 2010 - September 30, 2010
                                                                              Semiannual Report to Congress




     Significant Monetary Recommendations From Prior
     Semiannual Report to Congress for Which Recent Corrective
     Actions Have Been Made

     THE SOCIAL SECURITY ADMINISTRATION’S USE OF ADMINISTRATIVE
     SANCTIONS IN THE OLD-AGE, SURVIVORS AND DISABILITY INSURANCE
     PROGRAM (A-07-07-17052, 9/19/2008)
     Recommendation: Evaluate the current administrative sanctions process and implement necessary
     changes to ensure that all potential administrative sanctions are identified and proactively considered.
     In doing so, consider implementing a risk-based approach that focuses on sanctionable actions
     that result in significant overpayments.
     Valued at: $123,458,884 in funds put to better use.
     Corrective Action: The Act was amended to allow the agency to impose a period of benefit
     suspension as a deterrent to fraud and abuse. Additionally, SSA has updated the Program Operations
     Manual System with the most recent policy and procedure on imposing administrative sanctions.
     Also, the agency distributed appropriate action items to respective components.




April 1, 2010 - September 30, 2010                                                                              65
Semiannual Report to Congress




     Appendix G: Significant Non-Monetary Recommendations
     from Prior FYs for Which Corrective Actions Have Not Been
     Completed
     SOCIAL SECURITY NUMBER MISUSE FOR WORK AND THE IMPACT ON THE SOCIAL
     SECURITY ADMINISTRATION’S MASTER EARNINGS FILE (A-03-07-27152, 9/29/2008)
     Results of Review: Our review found that for Tax Year 2004, SSA’s Earnings Suspense File (ESF)
     contained approximately 111,000 wage items representing about $1.1 billion in wages that were
     removed from the Master Earnings File because about 49,000 numberholders (NH) disclaimed the
     wage items. Although SSA had procedures to assist NHs whose identities were being misused, such
     as placing newly established fraud indicators on their Numident records and issuing new (different)
     SSNs as appropriate, we found the correspondence sent to these individuals neither advised them
     about the effects of SSN misuse nor encouraged them to report suspected SSN misuse to the Federal
     Trade Commission and law enforcement.
     While SSA had several processes to detect some instances of SSN misuse in its records, such as
     isolating reporting anomalies related to children and deceased individuals during the Annual Wage
     Reporting process, we believe SSA needs to strengthen its controls to help prevent misuse of an SSN
     from continuing once identified. We found the Agency’s employer correspondence processes and
     employer liaison services did not inform employers about potential SSN misuse cases, although
     employers play an essential role in detecting and preventing SSN misuse. Further, the Agency had
     not established an automated process that would post subsequent wage items associated with SSN
     misuse to the ESF. Instead, the Agency generally relied on the public to inform it about repeated SSN
     misuse, and evidence showed this did not always occur.
     Recommendation: SSA should consider the development of a cost-effective method to automatically
     post subsequent wage items that have the same characteristics of previously disclaimed wage items
     to the ESF.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA’s Office of Policy has provided guidance and agreed that the Deputy
     Commissioner for Systems (DCS) should begin implementation of the OIG recommendation. The
     Office of Policy contacted the Office of General Counsel (OGC) regarding the issue (i.e., posting wage
     items to the ESF based on the fact that earnings for the same employer and Employer Identification
     Number (EIN) were disclaimed by the worker in the prior year). OGC stated that an individual’s previous
     disclaimer of wages for the same employer constituted “satisfactory evidence” as to the invalidity of
     subsequent wages received by the same employer. This permits SSA to correct its records by placing
     the subsequent earnings in the ESF. The Office of Policy sees no legal impediment for DCS to begin
     implementation of OIG’s recommendation. The Office of Earnings, Enumeration and Administrative
     Systems plans to accomplish the recommendation with the release of Annual Wage Reporting Tax
     Year 2010 in January 2011.

     Significant Non-Monetary Recommendations from Prior
     Semiannual Report to Congress for which Recent Corrective
     Action has been Made
     There are no significant management decisions from the prior semiannual report for which recent
     corrections were made.

66                                                                        April 1, 2010 - September 30, 2010
                                                                            Semiannual Report to Congress




   Appendix H: Office of Inspector General Peer Reviews

   Office of Investigations
   • Our Office of Investigations is required to undergo a peer review every three years to ensure general
   and qualitative standards comply with the requirements of the Quality Standards for Investigations
   adopted by the CIGIE. The peer review also ascertains whether adequate internal safeguards and
   management procedures exist to ensure that the law enforcement powers conferred by the 2002
   amendments to the Inspector General Act are properly exercised pursuant to Section 6(e) of the
   Inspector General Act (as amended) and the United States Attorney General Guidelines for Offices
   of Inspector General with Statutory Law Enforcement Authority.
   • In March 2008, our Office of Investigations underwent a peer review conducted by the Department of
   Health and Human Services OIG. The results of the review, issued in May 2008, showed that we were
   compliant with all President’s Council on Integrity and Efficiency Qualitative Assessment requirements.
   • In May 2009, we conducted a peer review of the Department of Homeland Security OIG. We
   completed the review in July 2009; we made no recommendations, as we found DHS OIG to be
   compliant with all CIGIE Qualitative Assessment requirements.
   • During this reporting period, the U.S. Postal Service OIG began conducting a peer review of our
   Office of Investigations. Results have not yet been reported to CIGIE.
   • There are no outstanding recommendations from prior investigative peer reviews completed by us
   or from prior reviews of our organization.


   Office of Audit
   • Our Office of Audit is required to undergo a peer review every three years, in accordance with
   generally accepted government auditing standards. A copy of the System Review Report can be
   obtained from our website at http://www.ssa.gov/oig/ADOBEPDF/externalreview.pdf.
   • During the reporting period, we underwent a peer review conducted by the Department of Justice
   OIG. The final System Review Report was issued in November 2009. We received a rating of pass,
   which means that the review team concluded that the system of quality control for the audit organization
   had been suitably designed and complied with to provide us with reasonable assurance of performing
   and reporting in conformity with applicable professional standards in all material respects. The
   Department of Justice OIG identified no deficiencies that affected the nature of the report. Further,
   there were no findings or recommendations as a result of this peer review.
   • Also during this reporting period, we conducted a peer review of the Department of Energy OIG,
   Office of Audit Services. We made no recommendations as a result of this peer review.
   • There are no outstanding recommendations from prior audit peer reviews completed by us or from
   prior reviews of our organization.




April 1, 2010 - September 30, 2010                                                                            67
Semiannual Report to Congress




        Glossary of Acronyms
           ALJ              Administrative Law Judge
           AMFED            Allegation Management and Fugitive Enforcement Division
           BIC-D            National Deceased Payee Project
           CDI              Cooperative Disability Investigations
           CDR              Continuing Disability Review
           CE               Consultative Examination
           CIGIE            Council of Inspectors General on Integrity and Efficiency
           CMP              Civil Monetary Penalty
           CY               Calendar Year
           DDS              Disability Determination Services
           DIB              Disability Insurance Benefits
           DOJ              Department of Justice
           ERP              Economic Recovery Payment
           ESF              Earnings Suspense File
           FY               Fiscal Year
           GSA              General Services Administration
           IO	              Immediate Office
           IT               Information Technology
           MADAM            Master Access Data Method
           MBR              Master Beneficiary Record
           NCC              National Computer Center




68                                                              April 1, 2010 - September 30, 2010
                                                                    Semiannual Report to Congress




         Glossary of Acronyms (Cont.)
            NICMS             National Investigative Case Management System
            OA                Office of Audit
            OASDI             Old-Age, Survivors, and Disability Insurance
            OCIG              Office of the Counsel to the Inspector General
            ODAR              Office of Disability Adjudication and Review
            OER               Office of External Relations
            OI                Office of Investigations
            OIG               Office of the Inspector General
            OMB               Office of Management and Budget
            OQAPR             Office of Quality Assurance and Professional Responsibility
            OTRM              Office of Technology and Resource Management
            Recovery Act      American Recovery and Reinvestment Act of 2009
            SSA               Social Security Administration
            SSI               Supplemental Security Income
            SSN               Social Security number
            the Act           The Social Security Act
            Title II          Federal Old-Age, Survivors, and Disability Insurance Benefits
            Title VIII        Special Benefits for Certain World War II Veterans
            Title XVI         Supplemental Security Income
            VA	               Department of Veterans Affairs




April 1, 2010 - September 30, 2010                                                            69
                  How to Report Fraud

The SSA OIG Fraud Hotline offers a means for you to provide
information on suspected fraud, waste, and abuse. If you
know of current or potentially illegal or improper activities
involving SSA programs or personnel, we encourage you to
contact the SSA OIG Fraud Hotline.


Call	......................	1-800-269-0271
Write ...................	Social Security Administration
					                       Office of the Inspector General
					                       Attention: SSA Fraud Hotline
					                       P.O. Box 17768
					                       Baltimore, MD 21235
Fax ...................... 410-597-0118
Online ..................	www.socialsecurity.gov/oig

         To obtain additional copies of this report,
                 please visit our website at
                www.socialsecurity.gov/oig


                   SSA Pub. No. 85-007
Preventing Fraud, Waste, and Abuse
    www.socialsecurity.gov/oig




                 YEARS


          Benefits America!
      Social Security Administration
      Office of the Inspector General
           SSA Pub. No. 85-007
